    The Postal Service Role in the Digital Age
           Part 1: Facts and Trends




                            February 24, 2011




Prepared by U.S. Postal Service Office of Inspector General
            Risk Analysis Research Center
            Report Number: RARC-WP-11-002
U.S. Postal Service Office of Inspector General                                                February 24, 2011
Part 1: Facts and Trends                                                                       RARC-WP-11-002



            The Role of the Postal Service in the Digital Age
                       Part 1: Facts and Trends


                                        Executive Summary

The Internet and the digital economy are fundamentally changing the worlds of
communications, transportation, and commerce. Since the dot-com boom and bust of
the early 2000s, the digital economy has continued to grow at a staggering rate, as both
consumers and businesses adopt electronic processes across multiple domains. New
digital technologies have been “disruptive innovations”1 for traditional businesses and
their business models. These disruptions in combination with the great recession of
2008 to 2009 have had a significant impact on postal organizations all over the world,
resulting in a steep decline in the volumes of personal, business, and advertising mail.
The diversion to digital channels is real and accelerating. As one leading new media
expert proclaimed, “If it can go digital, it will.”2

By 2020, 40 percent of the U.S. population will be digital natives,3 born into new
technologies. Digital natives’ behaviors are ingrained in electronic alternatives with little
or no desire to deal with hard copies. This group chooses online banking over checks;
Evites over invitation letters; text messages or Twitter over e-mail; and e-books over
physical books. As younger digital natives begin to enter the workforce, their behaviors
will have an even more fundamental impact on how businesses leverage technology.

In this paper, we present our research of the most prominent societal, behavioral, and
technological tendencies affecting the postal ecosystem, coupled with their associated
commerce, communication, and media trends.

Key Trends

    1.    There has been a progressive shift in communications moving from the
          physical to the digital. With every new technology, the speed and scope of
          communications have increased.

    2.    Businesses and governments are looking to move not only communications,
          but also transactions, to the digital world.

    3.    The digitization of bill presentment and payments (to varying degrees of
          adoption) is becoming mainstream as more households, including seniors, and
          people of varying income levels, are adopting the trend.


1
  Christensen, C. “The Innovator’s Dilemma,” Harvard Business Press. 1997.
2
  Jarvis, J. What Would Google Do?, Collins Business. 2009.
3
  Booz and Company, “The Rise of Generation C – Implications for the World of 2020.” January 2010.


                                                        i
U.S. Postal Service Office of Inspector General                                  February 24, 2011
Part 1: Facts and Trends                                                         RARC-WP-11-002


    4.    Control is shifting from the sender to the receiver, giving them greater choice in
          what, when, and how they receive communications.

    5.    The Internet has evolved from mass broadcast media to personalized
          conversations, hastened by the growth of social media sites.

    6.    Traditional players in print media (magazines and newspapers) have not
          disappeared, but are rapidly shifting their focus to online content.

    7.    Although traditional media still receive a majority of advertising expenditures,
          online and mobile advertising continue to grab market share.

    8.    Explosive growth of mobile devices increases consumption of content “on the
          go” and provides marketers the ability to get their content directly into the hands
          of individuals wherever they are.

    9.    New marketing tools, combining data of online activities with other demographic
          information and offline activity, allow advertisers to offer more targeted,
          personalized marketing communications to potential customers with an easy
          way for them to respond.

    10. E-commerce is growing rapidly but has not reached its full potential.
        Participants are still working to improve trust and enhance associated logistics,
        return services, payment, and security.

    11. Mobile commerce is positioned to grow significantly in the U.S. market as a tool
        for marketing, retail, finance, and payments.

    12. Digital technologies have facilitated global commerce, allowing businesses to
        market and together with parcel delivery services, fulfill orders across borders.

Shortcomings of the Ongoing Digital Revolution

New ways of doing business are rapidly taking shape, as the digital revolution continues
to rage. There are still some fundamental gaps restricting the pervasive advancement of
the digital economy, which has not settled into a state of equilibrium. These gaps
include:

        The Internet and all of its functionality is not available to all citizens to reap its
         economic benefits. There is a lengthening tail of digital refugees, which will only
         increase as the digital revolution progresses;

        There is a potential threat to the principle of “network neutrality,”
         nondiscrimination in access to communications networks;

        There is still a lack of an adequate level of privacy, confidentiality, dependability
         and security in digital communications and transactions as desired by citizens,
         with the potential of involuntary profiling of consumers;


                                                  ii
U.S. Postal Service Office of Inspector General                                                 February 24, 2011
Part 1: Facts and Trends                                                                        RARC-WP-11-002


       The digital infrastructure has limitations in connectivity and bandwidth, provided
        by companies that could go out of business at any time;

       There are inadequate personal information management tools to effectively deal
        with the increasing volume of electronic communications and applications;

       There is still insufficient availability of affordable digital currency and secure and
        convenient financial tools to transact online; and

       There are limits of choice, even withdrawal of the physical option as companies
        push consumers into digital-only communications.

Key Postal Impacts

The Postal Service has maintained its position in physical communications due to its
reach and monopoly access; however, new competitors are bypassing this advantage,
changing the “postal ecosystem.”4 No longer do hard copy providers solely drive this
ecosystem. Disruptive digital companies like Google are suddenly everywhere,
changing business models for advertising (Google Adwords), communications (Gmail
Priority), and publications (Google Books). With the enhanced targeting capabilities of
digital technologies, marketers are shifting towards behavioral and location-based
advertising that enables a more direct linkage between awareness and response. Some
of the main types of service providers in the digital economy today — platforms, Internet
intermediaries, search networks, digital data providers, application providers such as
social media, and mobile technology providers — look to maintain or grow their position
as the digital economy evolves.

But the Postal Service can continue to play a significant role. Some of the gaps cited
above divide rather than bind the nation together. Filling those gaps can provide some
real opportunities. Over the past 236 years, the Postal Service has provided the secure,
universally accessible platform for physical commerce and communications. The Postal
Service can extend this intermediary trusted role to the digital realm. It could establish
an enabling platform to bridge the digital divide and allow citizens to traverse from the
physical to the digital, if they choose or are required to, in this new digital economy.

This role may take on many different forms, but by working with leading Web service
providers, the Postal Service has the opportunity to shape and enforce industry
standards that fill identified gaps in the digital marketplace. Given the rapid cycles taking
place in the digital economy, the window of time for action is limited. The Postal Service
must establish a pivotal role for itself in this new emerging world to ensure its future
relevance.




4
 Postal Ecosystem is the term used for the markets, applications, and processes as well as sending and receiving
customers, partners, and vendors that have traditionally involved the Postal Service in some way.


                                                        iii
U.S. Postal Service Office of Inspector General                           February 24, 2011
Part 1: Facts and Trends                                                  RARC-WP-11-002


About This Project

Given the impact of a world going digital and the associated decline in mail volumes, the
OIG has undertaken this project to understand the potential impact of electronic
diversion on communications, commerce, and the Postal Service, and to identify future
opportunities arising from these disruptive technologies.

This research provides critical background information for postal stakeholders to
envision what the future in 2020 may look like, to understand the relevance of today’s
postal products and mandates, and to identify the market gaps that need to be filled in
order to satisfy society’s future needs. The white paper provides a description of the
radical and fast changes affecting communications and commerce in the digital age. It
provides facts and trends and discusses the impacts of the digital economy on the
postal ecosystem. However, this paper does not prescribe a strategy for the Postal
Service. This will be the focus of follow up work.




                                                  iv
U.S. Postal Service Office of Inspector General                                                                   February 24, 2011
Part 1: Facts and Trends                                                                                          RARC-WP-11-002




                                                  Table of Contents

Background ..................................................................................................................... 1 
          Changing Demographics and Consumer Behavior in the Digital
          Era ........................................................................................................................ 1 

The Shift to E-commerce................................................................................................. 3 
          Growth in Online Retail ......................................................................................... 3 
          Shipping and Returns Logistics ............................................................................ 4 
          Establishing Trust in E-commerce and Facilitating Transaction
          Processing and Payment ...................................................................................... 5 
          Facilitating Cross-Border Commerce .................................................................... 5 

Key Trends in the Evolution of Communications ............................................................. 7 
          The Shift from Physical to Electronic Communications Is Real ............................ 7 
          The Shift from Paper to Digital in Business and Government ............................... 9 
          Trends in Finance, E-billing, and Payments ....................................................... 10 
          The Speed and Scale of Communications Has Changed — the
          Need for “Now” ................................................................................................... 10 
          Consumer Power — Communications Control Shifts from
          Sender to Receiver ............................................................................................. 11 
          The Internet Has Evolved from Mass Broadcast Media to
          Personalized Conversations ............................................................................... 13 
          Traditional Print Media Move Online................................................................... 14 
          Print Advertising and Direct Mail to Internet Advertising
          (Including Direct E-mail) ..................................................................................... 15 
          Books to E-books ............................................................................................... 16 
          Catalogs and Publications to Websites .............................................................. 17 
          Newspapers to Online News .............................................................................. 17 
          The Future Is Always “On” — Mobile Technology Means Local
          Content, for Me, Right Now ................................................................................ 17 
          More Targeted, Personalized, and Measurable Marketing
          through Behavioral Advertising ........................................................................... 20 
          M-commerce Is the Way of the Future ............................................................... 21 




                                                                   v
U.S. Postal Service Office of Inspector General                                                               February 24, 2011
Part 1: Facts and Trends                                                                                      RARC-WP-11-002


Gaps in the Digital Age.................................................................................................. 22 
         The Internet and Its Consumer Tools Are Not Available to All
         Citizens ............................................................................................................... 22 
         Potential Threat to the Principle of “Network Neutrality” ..................................... 23 
         Lack of an Adequate Level of Privacy, Confidentiality,
         Dependability, and Security in Digital Communications and
         Transactions ....................................................................................................... 24 
         Inadequate Personal Information Management Tools ........................................ 25 
         Insufficient Availability of Affordable Digital Currency as Well as
         Secure and Convenient Financial Tools ............................................................. 25 

Key Realities for the Future ........................................................................................... 26 
         What Does the Future Look Like? — A Vision for 2020 ..................................... 26 
         Redefining the Postal Ecosystem ....................................................................... 27 

A Look Overseas ........................................................................................................... 27 

Conclusion — The Postal Service as a “Bridging” Platform .......................................... 30 




                                                                vi
U.S. Postal Service Office of Inspector General                                                            February 24, 2011
Part 1: Facts and Trends                                                                                   RARC-WP-11-002




                                                        Tables

Table 1:          The Internet and Different Generations .................................................... 1 
Table 2:          Mail Volume Forecasts in 2020 ................................................................ 8 
Table 3:          Direct Marketing Expenditure by Medium, 2008-2010 ............................ 15 
Table 4:          U.S. Shipments, Sales, Revenues, and E-commerce, 2007-
                  2008 ....................................................................................................... 32 
Table 5:          U.S. Retail Trade Sales, Total and E-commerce .................................... 33 
Table 6:          U.S. Electronic Shopping and Mail-Order Houses .................................. 33 
Table 7:          U.S. Postal Service Mail Volume Forecast – Businesses ....................... 36 
Table 8:          U.S. Postal Service Mail Volume Forecasts – Consumers ..................... 36 
Table 9:          U.S. Postal Service Mail Volume Forecasts – Businesses
                  (Expanded) ............................................................................................. 37 
Table 10:         U.S. Advertising Expenditures by Medium, 2009 ................................... 41 
Table 11:         U.S. Advertising Expenditures by Industry, 2008-2009 .......................... 41 
Table 12:         Projected Growth in U.S. Interactive Advertising Revenues ................... 42 


                                                       Figures

Figure 1:         Shifts in Control and Mode for Communications .................................... 12 
Figure 2:         Changes in Marketing Spending by Medium .......................................... 14 
Figure 3:         Internet Users (Per 100 People), 1990-2008 .......................................... 23 
Figure 4:         Quarterly U.S. Retail E-commerce Sales as a Percent of
                  Total Retail Sales ................................................................................... 32 
Figure 5:         Example of DHL Packstation .................................................................. 34 
Figure 6:         Stages of the Life Cycle for Different Mail Applications .......................... 35 
Figure 7:         Internet Advertising Revenues, 2001-2010 ............................................ 42 
Figure 8:         E-mail Continues to Capture Share of Marketing Spending ................... 43 
Figure 9:         Growth of Mobile Connections in the U.S. Market .................................. 44 
Figure 10:        Change in Texting Habits Among Adults ................................................ 44 
Figure 11:        Global Usage of Mobile Internet ............................................................. 45 
Figure 12:        Global Broadband Penetration Rates ..................................................... 46



                                                             vii
U.S. Postal Service Office of Inspector General                                                  February 24, 2011
Part 1: Facts and Trends                                                                         RARC-WP-11-002




                                               Appendices

Appendix A        U.S. Retail E-commerce Sales ............................................................... 32 
Appendix B        E-retailing Merchandise Categories, 2007-2008 .................................... 33 
Appendix C  DHL Packstation Concept ...................................................................... 34 
Appendix D  U.K. Postal Sector Mail Product Lifecycle .............................................. 35 
Appendix E        U.S. Postal Service Mail Volume Forecasts for 2020 ............................. 36 
Appendix F        Challenges of Digital Communications ................................................... 38 
Appendix G  E-billing Adoption Barriers ...................................................................... 39 
Appendix H  Change in U.S. Advertising Expenditures............................................... 41 
Appendix I        Growth in Internet Advertising ................................................................ 42 
Appendix J        E-mail’s Share of Marketing Spending, 2010 ......................................... 43 
Appendix K        Growth in the U.S. Mobile Market ........................................................... 44 
Appendix L        Global Mobile Ad Requests .................................................................... 45 
Appendix M  OECD Broadband Penetration Rates Globally, 2009 ............................. 46 




                                                        viii
U.S. Postal Service Office of Inspector General                                                 February 24, 2011
Part 1: Facts and Trends                                                                        RARC-WP-11-002




            The Role of the Postal Service in the Digital Age
                       Part 1: Facts and Trends


Background

Changing Demographics and Consumer Behavior in the Digital Era

Markets have traditionally been segmented according to life stage models that follow a
predictable pattern — think of the Baby Boomers and Generation X. The latest focus
involves Generation Y, today’s largest demographic group and most telling in terms of
what the future may hold. This group, also known as “digital natives” or “Millennials,”
has been surrounded by technology their whole lives. This demographic has pioneered
a user revolution where the balance of power is shifting from large, controlling
businesses to more confident and informed consumers.

Generation Y’s current world revolves around entertainment, communication, and
content. They are most likely to use the Internet to watch videos, play games,
                             Table 1: The Internet and Different Generations
                                                                                                  Percent of
                                                                        Percent of Total        Internet-using
 Generation Name*               Birth Years, Ages in 2009               Adult Population          Population

 Generation Y (Millennials)     Born 1977 - 1990, Ages 18 - 32                  26%                   30%

 Generation X                   Born 1965 - 1976, Ages 33 - 44                  20%                   23%

 Younger Boomers                Born 1955 - 1964, Ages 45 - 54                  20%                   22%

 Older Boomers                  Born 1946 - 1954, Ages 55 - 63                  13%                   13%

 Silent Generation              Born 1937 - 1945, Ages 64 - 72                  9%                     7%

 G.I. Generation                Born >1937, Age 73+                             9%                     4%
 Source: Pew Research Center, 2008
 * All generational labels used in this table with the exception of Younger- and Older- Boomers are the names
   conventionalized by Howe and Strausse’s book Generations. Younger- and Older- Boomers is a
   terminology used by Pew.




                                                        1
U.S. Postal Service Office of Inspector General                                              February 24, 2011
Part 1: Facts and Trends                                                                     RARC-WP-11-002


and download music; communicate with friends and family through social networking
sites and instant messages; or search for and contribute content to the Internet. It is
                            therefore no surprise that social networks, online games,
    Masters at multi-       and e-mail are the top three activities consuming users’
    tasking through
                            time online.5 Though users are less open to receiving
    several forms of
    multimedia,
                            advertising on social networking sites where they feel the
    Generation Y wants      content  is more personal, they are very receptive to
    everything “now.”       marketing   offers that they deem relevant to their interests
                            and, even more so, if they come recommended by friends
    Marketers must use a    they trust.6 Generation Y has come to rely heavily upon the
    combination of media    Internet as a source of information gathering and sharing.
    and content to get      Some of the most popular Internet websites have
    their attention.        transformed traditional entertainment and communication
                            media. For example, Wikipedia has become more popular
than printed encyclopedias while Flickr and Picasa provide alternatives for printing and
sending photos. YouTube, Netflix, and Google e-books are all transformational
businesses that are challenging traditional models.

Generation Y has a deep need for immediacy and like Generation X, they are naturals
at multi-tasking, making use of consumer media in extremely fragmented ways. For
business interactions, Generation Y generally prefers to
patronize small businesses that they see as being more loyal to   Mobile has
                     7
“people-over-profit.” From a sustainability perspective,          become the
Generation Y is all for the environment, as long as it comes with communications
a consumer benefit.8 This generation is aware of the perceived    method of choice
impact of hard copy mail on the environment; companies can        for Generations X
                                                                  and Y who are
reduce their environmental footprint through electronic solutions
                                                                  “always on.”
such as hybrid mail.

Baby Boomers were known as the wealthiest generation up to their time. Generation X
was affected by economic and employment uncertainty. Generation Y has experienced
the dot-com bubble in 2000 and the United States’ housing bubble and great recession
of 2008-2009. As a result, this group is trending away from credit cards in favor of debit
cards and is more fiscally responsible than older demographics. They are the heaviest
users of online banking. A 2010 study by Fiserv found that 80 percent of Generation Y
had used online banking in the last month and most prefer online records, with growing




5
  “What Americans Do Online: Social Media And Games Dominate Activity,” Nielsenwire. August 2010.
blog.nielsen.com/nielsenwire/online_mobile/what-americans-do-online-social-media-and-games-dominate-activity
6
  “How Facebook Can Become Bigger In Five Years Than Google Is Today,” TechCrunch, October 2010.
techcrunch.com/2010/10/02/facebook-bigger-google
7
  “Why Gen Y prefers to patronize small businesses,” The Globe and Mail. May 2010.
www.theglobeandmail.com/report-on-business/your-business/grow/customer-experience/why-gen-y-prefers-to-
patronize-small-businesses/article1579809
8
  “Go Easy on the Environment – And Our Wallets, Says Generation Y,” ScienceDaily. January 2010.
www.sciencedaily.com/releases/2010/01/100121140345.htm


                                                       2
U.S. Postal Service Office of Inspector General                                                February 24, 2011
Part 1: Facts and Trends                                                                       RARC-WP-11-002


interest in mobile banking via smartphones. Whereas only 11 percent of Baby Boomers
had used mobile banking, 33 percent of Generation Y had used it in the last month.9

Because both Generation X and Y are “always on,”10 mobile has become an efficient
and cost effective way of staying connected. Youth, especially teens, are the largest
users of SMS and MMS text messaging services. With 1.6 billion youth worldwide
owning a mobile phone and spending a staggering $330 billion annually on mobile, the
global mobile market is growing rapidly, especially in the developing world.11 This global
mobile growth may have a profound effect on bridging the digital divide (see Section 5),
which, up until recently, was largely dependent on having personal computer access.


The Shift to E-commerce

Growth in Online Retail

Despite showing steady growth over the last decade, e-retailing still only accounts for
about 4 percent of total retail sales in the United States (see Appendix A). 12 E-retailers
include “pure plays,” which are online-only stores, catalog, and mail order operations, as
well as online stores of traditional brick and mortar retailers. A Forrester study showed
                            that the two greatest barriers to online shopping are concern
  Half of Americans
                            over giving credit card information (62 percent) and the
  have made a
  purchase online.          inability to see items personally (55 percent).13 One of the
  Forrester forecasts       biggest trends in retail is consumers browsing and
  double-digit growth       researching products online and then completing the sale in-
  for online retail in the store. The most recent Pew Internet Project Report
  U.S through 2014.         (May 2010) shows that 58 percent of Americans have
                            researched a product or service online, while 52 percent of
the population have actually purchased products such as books, music, toys, clothing,
or travel services online (see Appendix B). 14 In Finland, Netposti’s (an online product of
the Finnish postal service) response to credit card concerns was to sign a cooperation
agreement with the leading online payment solutions provider that serves more than




9
  “Fiserv Gen Y Research Reveals Fiscal Responsibility and Digital, Mobile Mindsets,” Fiserv. March 2010.
investors.fiserv.com/releasedetail.cfm?ReleaseID=447863
10
   “Traditionalists, Baby Boomers, Generation X, Generation Y (and Generation Z) Working Together,” United Nations
Joint Staff Pension Fund.
www.un.org/staffdevelopment/pdf/Designing%20Recruitment,%20Selection%20&%20Talent%20Management%20M
odel%20tailored%20to%20meet%20UNJSPF's%20Business%20Development%20Needs.pdf
11
   “50 Mobile Youth Facts 2011,” MobileYouth.org. 2010. www.mobileYouth.org/download
12
   “E-Stats: E-Commerce 2008,” U.S. Census Bureau. May 2010.
www.census.gov/econ/estats/2008/2008reportfinal.pdf
13
   “Why Some Consumers Don’t Buy Online,” Forrester Research. March 2005.
www.forrester.com/magazine/documents/Why%20Some%20Consumers%20Dont%20Buy%20Online.pdf
14
   “Online Product Research,” Pew Research Centre. September 2010.
www.pewinternet.org/~/media//Files/Reports/2010/PIP%20Online%20Product%20Research%20final.pdf


                                                        3
U.S. Postal Service Office of Inspector General                                                February 24, 2011
Part 1: Facts and Trends                                                                       RARC-WP-11-002


1,500 Finnish online stores. Consumers are able to e-invoice their purchases directly to
their NetPosti account and avoid using a credit card.15

Recent studies identify signs of continued e-commerce adoption. A Forrester study
indicates more satisfaction for consumers who research and purchase online
(82 percent) than for those who only research online and then shop in-store
(62 percent). Forrester forecasts double-digit growth for online retail in the United
States, expecting it to reach nearly $249 billion (6 percent of total retail sales) by 2014.16
A 2010 survey taken in the state of Nebraska showed a significant increase in residents
purchasing goods and services online (68 percent vs. 29 percent in 2000), particularly in
rural areas. Those who did not shop online tended to come from areas with poor
Internet coverage, suggesting that as Internet access improves, more consumers will
choose to go online to find the best deals.17 Despite this encouraging data, consumers
will continue to finalize their sales in-person unless more effort is made to erode the
barriers to purchasing online.

Shipping and Returns Logistics

Shipping and logistics are a huge component of e-commerce, leading to significant
growth in parcel delivery for the Postal Service and its competitors. Moreover, in a world
that caters to immediacy, shipping contributes significantly to
the online shopping customer experience. Customers have            Many e-retailers
                                                                   now offer free
developed higher expectations for their items to ship within
                                                                   shipping or a
24 hours and arrive promptly, and returning products must          “shipping
also be easy.18 Shoppers now consider free shipping the            subscription
price of entry for their business rather than a bonus.19 “Cart     service” to entice
abandonment” worries e-retailers, as research suggests it          shoppers to
should: 39 percent of shoppers in a Forrester Research             complete their
study cited high shipping charges as the main reason for           transactions
cancelling their purchases at checkout. Many e-retailers now       online.
offer free shipping either with or without a minimum purchase
to entice online shoppers to complete their transactions online, while others offer a
shipping subscription service (Amazon Prime).20 Some online retailers such as
Zappos.com attempt to differentiate their services by providing both free shipping and




15
   “Finnish online store invoices now available in NetPosti,” Itella website. June 2010.
www.itella.com/english/current/2010/20100610_itella_netposti_en.html
16
   “Forrester Forecast: Double-Digit Growth for Online Retail in the U.S. And Western Europe,” Forrester Research.
March 2010. www.forrester.com/ER/Press/Release/0,1769,1330,00.html
17
   “More Nebraskans Shopping Online Than Anything Else,” ZippyCart. October 2010.
www.zippycart.com/e-commerce-news/1519-more-nebraskans-shopping-online.html
18
   “Catering to Affluent Shoppers Online,” eMarketer. September 2010. www.emarketer.com/Article.aspx?R=1007943
19
   “Retailers hope free shipping turns you into a regular,” USA Today. November 2009.
www.usatoday.com/money/industries/retail/2009-11-16-freeshipping16_ST_N.htm
20
   “Amazon’s free-shipping secret,” cnet reviews. December 2010. http://reviews.cnet.com/8301-18438_7-20024644-
82.html


                                                        4
U.S. Postal Service Office of Inspector General                                               February 24, 2011
Part 1: Facts and Trends                                                                      RARC-WP-11-002


returns, a policy that has no doubt contributed to its being ranked number one out of
150 e-retailers in a recent study of online customer service.21

New research in the United Kingdom demonstrates just how important a hassle-free
returns policy is when it comes to keeping customers, since almost half of those
surveyed check the returns process before completing their purchases. More self-
service logistics solutions have launched in Europe for senders to label and ship out
packages and for receivers to pick up their purchases at their convenience. For
example, DHL has a network of 2,500 Packstations servicing over 1.5 million customers
in Germany, offering 24/7 access (see Appendix C).22

Establishing Trust in E-commerce and Facilitating Transaction Processing and
Payment

An important consideration for the success of e-commerce is establishing trust, since
buyers and sellers may never meet and accountability can be low. Larger retailers can
provide trust to consumers through their established brand names and safeguards such
as product ratings or guarantees. However, smaller businesses often struggle to appear
credible online and must find other ways to establish trust. Social networking and
e-commerce consolidator sites such as eBay are helping to build trust through
establishing consumer reviews and exchange forums. Having credible payment
processing is a very important requirement for e-retailers and one which has limited
availability today.

The majority of transactions are still conducted using credit cards and processed
through traditional, offline payment networks that link merchants and cardholders. There
are many electronic payment alternatives being developed globally but the industry is
still trying to build standards, and none have yet gained widespread acceptance among
merchants or consumers. Paypal is the most widely used non-bank payment
mechanism. Additionally, there is some consolidation in suites of e-commerce
capabilities. One example of this trend is the recent purchase of SecurePay by
Australia Post.23

Facilitating Cross-Border Commerce

There is considerable opportunity for increased growth in e-retailing through
international export and import (cross-border shopping) as businesses look to market
their products globally. In the United States, Amazon and eBay have shown significant
growth in international sales with over 54 percent and 47 percent of revenue
respectively stemming from international sales.24 Until recently, many retailers viewed

21
   Betts, M. “Zappos.com earns top score for online customer service,” Computerworld. June 2010.
www.computerworld.com/s/article/350085/Zappos_Earns_No._1_Ranking_for_E_retailing
22
   “More capacity at DHL Packstations,” Market Flash. Issue 415, 21 September 2010.
www.ipc.be/~/media/Documents/PUBLIC/Market%20Flash/401-500/MF415.ashx
23
    “Australia Post Strengthens ecommerce presence,” Australia Post press release. December 2010.
www.auspost.com.au/about-us/australia-post-strengthens-ecommerce-presence.html
24
   “International E-commerce Expansion Benchmark Study,” J.C. Williams Group. September 2009.


                                                       5
U.S. Postal Service Office of Inspector General                                                February 24, 2011
Part 1: Facts and Trends                                                                       RARC-WP-11-002


international expansion as an all-or-nothing proposition. The few incremental
international orders were not viewed as enough of an incentive to deal with the
complexity of entering new markets. This is changing, due
to advances in technology, which includes international         53% of the largest US
shopping cart solutions with local market payment options,      e-commerce
translation capabilities, and more seamless fulfillment and     companies accept
logistics through third-party specialists.                      international orders,
                                                                                but many admit to a
As an example, Canadian retail sales have been averaging poor cross-border
3 percent to 4 percent ahead of the U.S. market in recent           customer shopping
years, but Canadian retailers have been slower to embrace experience.
the online channel, providing an opportunity for American
chains to move north of the border.25 Gap, for example, has just launched an online
shopping site that takes care of the currency conversion, duties, and taxes for Canadian
consumers to provide hassle-free sales for its Gap, Banana Republic, and Old Navy
divisions. According to a J.C. Williams report, as of spring 2009, 53 percent of the
largest e-commerce companies in the United States (more than $100 million in
revenues) were accepting international orders, but many of these companies would
likely admit that their international customers often suffer from a subpar shopping
experience.26 A retailer will first test the waters with international transactions through a
third-party service provider (such as FiftyOne) that will provide the cross-border logistics
and fulfillment in an e-commerce lifecycle. The retailer will later move to an in-country
model of warehousing and fulfillment. Canada Post has successfully launched a
managed cross-border e-commerce logistics service with its Borderfree program.27




25
   Flavelle, D. “Higher Canadian retail sales attract U.S. stores,” The Star. October 2010.
www.thestar.com/business/article/875744--higher-canadian-retail-sales-attract-u-s-stores
26
   “International E-commerce Expansion Benchmark Study,” J.C. Williams Group. September 2009.
27
   “Selling to Canada Adds Up,” Canada Post Corporation. canadapost.ca/cpo/mc/business/solutions/borderfree.jsf


                                                        6
U.S. Postal Service Office of Inspector General                                     February 24, 2011
Part 1: Facts and Trends                                                            RARC-WP-11-002



Key Trends in the Evolution of Communications
Given the changes in demographics and consumer behavior, the exponential growth in
e-commerce, and the use of innovative technologies, it is no surprise that electronic
forms of communication are supplanting hard-copy communications among some
consumers. From the personal to the corporate world, the Internet has transformed our
ability to send messages, share knowledge, and conduct transactions more quickly and
economically than ever before. This communications shift is having an impact on
individuals, business, and government, forcing many to radically change how they adapt
to this world and how fast they adjust.

The Shift from Physical to Electronic Communications Is Real

We are now visibly in the digital age where almost any communication that was
traditionally executed in a physical manner can be conducted electronically. The cost
savings can be significant, since digital delivery via the Internet avoids the cost of
delivering a hard copy of many products. This transition to “e” has
been particularly pervasive in the world of correspondence, where         The Postal
physical letter mail for both personal and business purposes is           Service’s
                                                                          relevance could
declining rapidly as digital methods of communication become
                                                                          be eroded
mainstream.                                                               without a radical
                                                                                change in its role
The convergence of communications media formats, the increase             in the new
in collaborative sharing of consumer knowledge, and the growing           economy.
importance of declaring, tracking, and managing preferences have
also contributed to the electronic shift. The impact of the electronic shift is directly felt by
postal services around the world with significant declines in mail volumes (see
Appendix D), and the Postal Service is no exception. The Postal Service’s role as a
primary platform for exchanging communications has declined in parallel with the drop
in mail volume. While the volume and growth of First-Class Mail was traditionally linked
to Gross Domestic Product (GDP) growth, new technology has diminished that
relationship. The Boston Consulting Group (BCG) forecasted a drop in total mail volume
for the Postal Service between 2009 and 2020 (see Appendix E).28




28
 “Projecting U.S. Mail Volumes to 2020,” Boston Consulting Group. March 2010.
www.usps.com/strategicplanning/_pdf/BCG_Detailed%20presentation.pdf


                                                      7
U.S. Postal Service Office of Inspector General                                                   February 24, 2011
Part 1: Facts and Trends                                                                          RARC-WP-11-002

                                   Table 2: Mail Volume Forecasts in 2020

                 Consumer-Sent Mail                                  Business-Sent Mail
    Consumer-sent mail to fall 39 percent overall    Business-sent mail to fall by 15 percent overall,
     with the greatest decline in payments sent.         with the greatest decline in bank statements
    Consumer-sent mail to account for 8 percent of      and payments.
     total mail sent (compared with 10 percent in     Business mail sent to consumers to fall 38
     2009).                                              percent; to other businesses by 25 percent.
    Consumer “personal/social” mail to remain at 3   Catalogs and magazines sent to fall by 20
     percent of all mail sent.                           percent.
                                                      Ad mail sent to increase by 4 percent.
    Parcels sent by both consumers/businesses to increase by 40 percent.
Source: Boston Consulting Group 2010.

With First-Class Mail volume expected to decline further, the Postal Service may
become almost entirely a one-way broadcast distribution medium rather than a two-way
communication exchange medium.29 American mailboxes currently receive an average
of four pieces of mail each day,30 and entire households average only one personal
correspondence each week compared to almost 18 pieces of marketing mail.31
Americans increasingly perform their day-to-day tasks online. The convenience of any
time, any place, and any format digital media ensures that the shift will continue to grow
rapidly. By 2020, 40 percent of the U.S. population will be digital natives, whose
communications behaviors are primarily digital. They will replace a previous generation
with a preference for traditional mail communications.32
Although declining First-Class Mail volume has been a hot        Studies show that
topic in postal circles, physical mail should not be entirely    consumers continue to
discounted. In fact, 36 percent of U.S. respondents across       value physical mail, but
                                                                 as the digital world
all ages trust the mail more than e-mail — up from
                      33                                         advances, companies
29 percent in 2008. A recent study commissioned by               will need to find ways to
Pitney Bowes showed that approximately 60 percent of             identify and
consumers still prefer to receive catalogs, bills, and bank      communicate through
statements by physical mail,34 and a study by Epsilon            the customers’
Targeting35 confirmed that young people prefer to learn          preferred channel.
about marketing offers via postal mail and newspapers
rather than online sources (see Appendix F). These findings indicate the need for
companies to better understand the communications needs of their customers and to
communicate with them via their preferred channel of delivery. Hybrid mail services that

29
   “Implications of Declining Mail Volumes for the Financial Sustainability of the Postal Service,” USPS Office of
Inspector General Risk Analysis. September 2010.
30
   “Postal Service: End Saturday delivery in 2011,” Chicago Breaking News. March 2010.
www.chicagobreakingnews.com/2010/03/postal-service-end-saturday-delivery-in-early-2011.html
31
   “The Facts About Junk Mail,” ForestEthics. www.donotmail.org/section.php?id=3
32
   Webb, J. “Three Numbers, 30-60-100, Foreshadow What’s Ahead,” October 2010.
whattheythink.com/articles/article.cfm?id=47075
33
   “Direct Mail Beating E-mail for Young Adults,” Target Marketing. September 2010.
www.targetmarketingmag.com/article/direct-mail-becoming-more-relevant-than-e-mail-young-adults-says-epsilon-
survey/1#utm_source=tipline&utm_medium=enewsletter_continue&utm_campaign=2010-09-01
34
   “Physical Mail Still Preferred by Many,” ZDNet. May 2010. www.zdnet.com/blog/doc/physical-mail-still-preferred-by-
many/1367
35
   “Finding the Right Channel Combination: What Drives Channel Choice,” Epsilon Targeting. September 2010.
www.epsilon.com/pdf/med_pref_report_081610_FINAL_DRAFT.pdf


                                                         8
U.S. Postal Service Office of Inspector General                                                February 24, 2011
Part 1: Facts and Trends                                                                       RARC-WP-11-002


convert electronic mail to physical or physical mail to electronic are emerging, such as
Swiss Post Box, offered in partnership with Earth Class Mail.

The Shift from Paper to Digital in Business and Government

Technology innovation and an emphasis on protecting the environment is changing the
way people live and work, driving cost-efficiency with the added benefit of improved
sustainability. In the past, business communication was about sending memos, writing
business letters, and holding face-to-face meetings. Contemporary business
communications and processes have evolved to include all the latest technologies, such
as e-mail, instant messaging, teleconferencing,                The U.S. Government
videoconferencing, and even social networking. As              is going digital — the
businesses and governments evolve digitally, they have         IRS plans to stop
gone from offering websites with static content to basic e-    mailing income tax
commerce-enabled sites to fully interactive and                forms in 2011 and
collaborative Web 2.0.                                         most government
                                                                                benefit payments will
The progression for some has been slower than for others,      be made through
largely due to cost, complexity of execution, and concerns     direct deposit by
about security. The recession of 2008-2009 encouraged          2013.
many to speed up their efforts to save money. For
example, in 2005, the U.S. Army made an effort to remove paper processes across the
Army by moving to a fully electronic, Web-based solution, including e-forms that
resulted in savings of $1.3 billion estimated per year and 30 minutes per person each
day.36 Apple has been marketing the iPad to hospitals as a paperless way to access
medical records, gaining widespread enthusiasm from emergency room physicians.37
Once a business has made the investment to go electronic, it is not likely to go back to
paper processes.

Governments around the world are leveraging the digital economy as a way of engaging
in more two-way dialogue with their citizens to help improve their quality of service. The
U.S. Government, however, has been relatively slow to move from sender control to
receiver control in the services it provides. State initiatives have advanced further than
federal through online applications for services such as taxes, motor vehicle
registration, and business licensing. The Obama administration has actively pursued its
open government mandate by establishing conversations with its constituents through a
number of federal portals and instant updates through the Government Notifications
Dashboard.38 Recent initiatives by the IRS and the Treasury Department are indicators
of the government going digital. What seems most important is implementing standards
to ensure operability across agencies for a more seamless user experience for citizens.



36
   “Army evolves to e-forms,” All Business. April 2005. www.allbusiness.com/management-companies-
enterprises/1088598-1.html
37
   “The iPad makes its first hospital rounds,” ZDNet. August 2010. www.zdnet.com/blog/healthcare/the-ipad-makes-
its-first-hospital-rounds/3880
38
   U.S. Government Notifications Dashboard. notifications.usa.gov


                                                        9
U.S. Postal Service Office of Inspector General                                                February 24, 2011
Part 1: Facts and Trends                                                                       RARC-WP-11-002


Postal operators overseas are already offering a full spectrum of e-government
services. Poste Italiane is supporting several e-government initiatives, which leverage
the convergence of physical infrastructure and electronic platforms.

Trends in Finance, E-billing, and Payments

One notable area of electronic transformation is in finance, billing, and payments. In the
United States, paper checks have declined from 61 percent of all payments in 2000 to
                     just 26 percent in 2010, while online bill payments have grown from
 About 50            12 percent to 45 percent of all payments.39 Once preferred only by
 percent of U.S.     tech-savvy young males, the digitization of billing is becoming
 households pay      mainstream as more households, including seniors, and people of
 bills online        all income levels are adopting the trend. Currently in the United
 each month.         States, electronic payments are evenly split between two models,
                     payment at the biller website (Biller Direct), and payment through
online banking. According to Javelin Research, about 50 percent of U.S. households, or
43 million people, now pay bills through online banking each month.40

Regardless of the perceived benefits of e-billing for the environment, cost savings, and
consumer experience, e-billing adoption rates continue to fall short of market
expectations.41 While there are several limiting factors such as registering with each
company website and lack of convenience in retrieving online bills, most consumers are
complacent and simply cannot be bothered to make the effort to go paperless. Others
still feel a need to receive a paper bill as a trigger to take action. Businesses and
governments are using negative reinforcement, such as charging consumers for
physical statements, in order to force consumers to make the switch (see Appendix G)
with the goal of eventually eliminating paper-based bill presentment all together. The
negative reinforcement is actually having positive effects for businesses as they move
into transpromotional marketing opportunities based on customer purchasing habits.

The Speed and Scale of Communications Has Changed — the Need for “Now”

The velocity of communications changes with the launch of every new technology.
When e-mail first moved to the mainstream in the mid-1990s, it   The Wall Street
was considered a very fast mode of communication, mirroring      Journal reports
the speed of a fax at a much lower cost. But in the span of just that usage of
two decades, e-mail has begun to be perceived by younger         Facebook and
generations as slow, mainly because more accessible and          Twitter are
immediate methods of conversation have emerged like SMS          outpacing
text messaging, instant messenger, Twitter, and social           e-mail.
networking. These modes of communication tend to result in

39
   “Online bill payment and e-bill adoption takes off in U.S.,” The Paypers Survey. May 2010.
www.thepaypers.com/news/e-invoicing/online-bill-payment-and-e-bill-adoption-takes-off-in-us-survey/741286-24
40
   “Going paperless can stop fees from banks,” The Post and Courier. August 2010.
www.postandcourier.com/news/2010/aug/22/going-paperless-can-stop-fees-from-banks
41
   “E-billing: Understanding the Adoption Barriers,” Striata. www.tmforum.org/ArticleEbilling/8746/home.html


                                                       10
U.S. Postal Service Office of Inspector General                                               February 24, 2011
Part 1: Facts and Trends                                                                      RARC-WP-11-002


shorter, more direct messages that better capture the receiver’s attention and elicit a
faster response. Users are no longer expected to respond immediately to an e-mail
since other methods of communication are preferred when an answer is needed right
away. While it is true that social networks have gained in popularity with 48 percent of
Americans using Facebook or LinkedIn42 as a communications tool, e-mail is still
entrenched in our daily lives, mainly for professional communications (work and
business) and increasingly for preference-based marketing messages. For some, this
communications intensity has created a challenge in being able to manage the volume
and types of communications across all channels. Businesses and organizations are
just starting to provide the tools to help individuals manage their connections.

When it comes to understanding the relevance of different methods of communication,
views vary. Some reports claim that e-mail is outdated and unfashionable.43 The Wall
Street Journal reports that Facebook and Twitter are replacing      Generation Y will
e-mail as the “king of communication.”44 However, e-mail            not pay for a
remains a very popular online activity, especially among older      stamp when
Internet users.45 Despite its slower delivery and higher cost,      “free” electronic
physical mail is also valued for emotional correspondence,          alternatives are
direct marketing, and legal standing. While older demographic       available.
segments may not hesitate to pay to send a letter, Generation Y
will generally not pay for postage when e-mail, text messaging, and social networking
sites are readily available free alternatives.

Consumer Power — Communications Control Shifts from Sender to Receiver

A fundamental shift is occurring in the communications market, where control is shifting
from the sender to the receiver. There is an inverse relationship between provider
control and consumer trust, something that businesses and governments must
understand and accept in the digital age. In other words, businesses need to trust their
customers and give them control (and they will use it); otherwise people will walk
away.”46

Figure 1 depicts the emerging dynamic or the interplay between trust and control. This
further illustrates the receiver taking more control over the channel while senders
continue to explore new methods for communication.




42
   “Online Product Research - 58% of Americans have researched a product or service online,” PEW Internet.
September 2010.
www.pewinternet.org/~/media//Files/Reports/2010/PIP%20Online%20Product%20Research%20final.pdf
43
   “Generation Y: ‘E-mail is unfashionable and outdated’,” ZDNet. August 2009.
www.zdnet.com/blog/igeneration/generation-y-e-mail-is-unfashionable-and-outdated/2561
44
   “Open Thread: The End of E-mail?,” Fast Company. June 2010. www.fastcompany.com/1661288/the-end-of-e-mail
45
   “Generations Online in 2009,” PEW Internet Study. January 2009. pewinternet.org/Reports/2009/Generations-
Online-in-2009/Generational-Differences-in-Online-Activities/4-Older-generations-use-the-internet-as-a-tool-for-
research-shopping-and-banking.aspx
46
   Jarvis, J. “What Would Google Do?, “Collins Business. 2009, p.82-83.


                                                      11
U.S. Postal Service Office of Inspector General                                        February 24, 2011
Part 1: Facts and Trends                                                               RARC-WP-11-002

                          Figure 1: Shifts in Control and Mode for Communications

                 Receiver 
                 Decides
                               Tools and capabilities              Multi‐channel,
                                giving control to the               Bi‐directional 
                                      receiver                    information and 
                                                                   communication



                                   Current physical               Diversified multi‐
                                      business                    channel services


                  Sender 
                  Decides
                               Physical                                         Multi‐Channel
                               Mail                     Market Shift            Communications
Source: Tomlinson, J., Innovapost, 2010.


Before the Internet, companies and institutions thought that maintaining control over
content, policies, processes, and products would lead to winning the public’s trust. In
the digital age, we have seen the complete opposite. Content sites such as weblogs
and social community boards give users the chance to produce content based on their
real-life experiences. TripAdvisor, for example, has become an incredibly powerful and
trusted source of travel information that is directly influencing consumer behavior.
Through collaborative conversations, this shift in control is creating transparent markets
where users become participants in the companies with whom            Through online
they choose to do business. Companies such as Microsoft,47            collaboration,
give users the opportunity to try new products in Beta release        consumers are
and then comment publicly with their recommendations for the          gaining more control
next release, thereby gaining both credibility and consumer           over the products and
trust. That credibility and trust then grows throughout that          services they receive
consumer’s social community, making transparency, credibility,        from businesses.
and customer service a new form of advertising.

This shift in control is also having a significant impact on the mail industry. As users
become more aware of the amount and type of communications they are receiving
through all channels, they are beginning to demand more relevant content tailored to
their individual needs. This becomes directly relevant to First-Class and Standard Mail,


47
     Microsoft website. connect.microsoft.com/Connect


                                                        12
U.S. Postal Service Office of Inspector General                                            February 24, 2011
Part 1: Facts and Trends                                                                   RARC-WP-11-002


since individuals who feel they receive too much advertising are beginning to look for
ways to control what information they receive and how they receive it.

The Internet Has Evolved from Mass Broadcast Media to Personalized
Conversations

In a recent book, one digital authority noted that the mass market is dead — replaced
with the mass of niche markets.48 People gravitate towards their own interests. Thanks
to the vast Internet content creation tools, people now have much greater opportunity to
search for and find what they are looking for or create it themselves. Advertising has
had to adapt to this notion, and as a result, many traditional forms of media are in
decline. Spending on mass media, such as newspapers, magazines, catalogs, and TV,
is shifting to more interactive methods of holding conversations with customers.

Social media offers brands more than just an outreach platform and are becoming
increasingly popular as a marketing vehicle. Brands are finding ways to tap into peer-to-
peer conversations to listen, learn, and act on the information they gather, allowing
customers to shape the brands. Today’s consumer wants validation and reinforcement
from other consumers, and the opinions of their peers are more important than the
                      same words from a company spokesperson. While return on
 National retailers   investment (ROI) has been difficult to calculate, it is clear that
 like Walgreens
                      social media has been an effective method of boosting brand
 and JCPenney are
 leveraging social
                      awareness. Services like Twitter have allowed companies to see
 media by             what consumers are saying in casual conversation without the
 incorporating        need for expensive focus groups or consumer polls.49
electronic weekly
flyers into            Many U.S. industries and top companies have shifted significant
Facebook pages.        marketing dollars into social media. The auto industry will spend
                       $1.2 billion this year on social media advertising.50 A top
marketing executive recently stated that Facebook is playing the same marketing role
that television played in the 1960s.51 By incorporating electronic weekly newspaper
flyers into Facebook pages, advertising becomes interactive. Viewers can enlarge and
print barcode-enabled coupons as well as provide comments on products and specials.
Users can also click a “share” button for each individual coupon or special to include in
their personal newsfeeds.52

Refer-a-friend techniques can be very effective in the social media environment.
ExactTarget, an interactive marketing provider, polled 1,500 consumers for a study to
determine consumers’ motivations for engaging with companies through e-mail,

48
   Jarvis, J. “What Would Google Do?, “Collins Business. 2009, p.63-65.
49
    “Best Global Brands 2010,” Interbrand Study. www.brandwizard.com/Best_Global_Brands_2010_US.pdf
50
    “Nissan’s Social Media Strategy: Hire ‘Nobodies’,” Fast Company. October 2010.
www.fastcompany.com/1693652/nissan-turns-to-virtual-nobodies-for-social-media-strategy
51
    Facebook Sells Your Friends, September 25, 2010,
http://www.businessweek.com/magazine/content/10_40/b4197064860826.htm
52
    “Big Brands Using Weekly Circulars on Facebook”, ClickZ, August 4, 2010.
www.clickz.com/clickz/news/1726606/big-brands-using-weekly-circulars-facebook?WT.rss_f=News+-
+ClickZ&WT.rss_a=Big+Brands+Using+Weekly+Circulars+on+Facebook


                                                     13
U.S. Postal Service Office of Inspector General                                               February 24, 2011
Part 1: Facts and Trends                                                                      RARC-WP-11-002


Facebook, and Twitter. The study found that consumers aged 15-to-24 may show their
affinity for their favorite brands on Facebook, but they turn to e-mail for deals, offers,
and coupons. For example, 56 percent of young consumers say they subscribe to a
brand or retailer’s e-mail newsletter in search of on-going deals, compared with
28 percent who turn to Facebook for deals. Consumers reported that they keep
engaging in e-mail because it is private. They are able to receive exclusive,
personalized offers, and they can respond to the message at their leisure.53 Where
advertisers use print marketing, more advanced printing techniques are evolving to
enable more personalized mail, catalogs, and magazines.54

Traditional Print Media Move Online

The marketing and advertising industry, a major sector of the U.S. economy accounting
for 2 percent of national GDP, is undergoing a fundamental restructuring where the lines
of responsibility are blurring as traditional media migrate to digital platforms.55 Figure 2
shows the trend in annual U.S. marketing spending by channel for 2007-2009.56
                         Figure 2: Changes in Marketing Spending by Medium




        40%     30.00%
        30%                 20.80%
        20%                            11.60%
        10%
         0%
       ‐10%                                        1.90%
       ‐20%                                                   ‐8.40%     ‐9.80%     ‐10.70%
       ‐30%                                                                                     ‐19.40%
      Source: Winterberry Group. 2010.
      www.winterberrygroup.com/sites/default/files/Global%20Trends%20--%20DMA2010.pdf




53
   “Young consumers use e-mail to find deals,” Internet Retailer. July 2010
www.internetretailer.com/2010/07/01/young-consumers-use-e-mail-find-deals
54
   “Press to Expand and Enhance Tribune Direct Marketing’s Capabilities in One-to-One Communications,” Market
Watch. September 2010. www.marketwatch.com/story/kodak-prosper-press-to-expand-and-enhance-tribune-direct-
marketings-capabilities-in-one-to-one-communications-2010-09-27?reflink=MW_news_stmp
55
   “Advertising Industry in the Digital Age,” Congressional Research Service. November 2009.
www.fas.org/sgp/crs/misc/R40908.pdf
56
   “Outlook 2011: Global Trends in Direct & Digital Marketing,” Winterberry Group. October 2010.
www.winterberrygroup.com/sites/default/files/Global%20Trends%20--%20DMA2010.pdf


                                                      14
U.S. Postal Service Office of Inspector General                                     February 24, 2011
Part 1: Facts and Trends                                                            RARC-WP-11-002


The chart below shows the change in expenditure by media channel from 2008 to 2010.

                     Table 3: Direct Marketing Expenditure by Medium, 2008-2010
                                        (in billions of dollars)
Direct Mail Advertising Expenditures
(by Medium)                                         2008      2009      2010    2008-09    2009-10

Mobile                                              $0.20     $0.20     $0.30    49.60%      45.60%

Internet Other                                      $3.60     $3.60     $4.20     0.30%      15.20%

Commercial E-mail                                   $0.60     $0.60     $0.70     1.50%      11.20%

Social Networking                                   $1.20     $1.20     $1.30     2.50%      10.40%

Internet Search                                    $10.80    $11.20    $12.20     3.50%       8.90%

Internet Display                                    $7.30     $7.20     $7.80     -1.20%      8.00%

Other                                               $2.70     $2.40     $2.60    -10.00%      6.10%

DR Television                                      $22.20    $19.40    $20.30    -12.60%      4.70%

Direct Mail (Catalogue)                            $18.90    $15.10    $15.60    -20.20%      3.10%

Insert Media                                        $0.90     $0.80     $0.80    -11.00%      2.40%

Direct Mail (Non-Catalogue)                        $33.60    $29.30    $29.90    -12.90%      2.20%

Telephone Marketing                                $41.80    $39.40    $39.50     -5.70%      0.10%

DR Magazine                                         $8.20     $6.70     $6.60    -18.20%     -1.30%

DR Radio                                            $4.30     $3.30     $3.30    -21.80%     -1.50%

DR Newspaper                                       $11.90     $8.90     $8.40    -25.30%     -5.40%

Total                                             $168.10   $149.30   $153.30    -11.20%      2.70%
Source: Direct Marketing Association, 2010.

Forrester expects digital advertising, which now accounts for about 12 percent of the
U.S. advertising spending, to reach a 21 percent market share by 2014. Companies
have been shifting their marketing budgets from traditional to new media tools such as
corporate websites, blogs, and social media. However, even if online advertising
doubles by 2014, traditional media will still account for the largest share of spending,
dominated by TV (see Appendix H).

Print Advertising and Direct Mail to Internet Advertising (Including Direct E-mail)

Internet advertising includes online publications, video, search engine keywords, and
e-mail, and its share of advertising revenue will increase almost 10 percent in 2010 to
exceed that of print advertising. This trend is similar to how online ad spending




                                                   15
U.S. Postal Service Office of Inspector General                                                    February 24, 2011
Part 1: Facts and Trends                                                                           RARC-WP-11-002


outpaced radio advertising in 2008.57 Search advertising accounted for approximately
half of all digital ad revenues in 2008 and was dominated by a few large firms such as
Google and Yahoo (see Appendix I).

This shift to online channels is having an impact on direct mail volume growth for the
Postal Service. ICH Global Insights predicts a modest increase of 2.2 percent for direct
mail in 2010, as the economy begins a slow recovery.58 BCG has projected that total
advertising mail volumes will grow slightly (4 percent) through 2020. More specifically,
BCG forecasts a moderate increase in Standard Mail (18 percent by 2020) and declines
in heavier pieces such as catalogs and magazines (-29 percent and -17 percent,
respectively).59 The rationale for the continued, more moderate growth in direct mail is
that physical direct mail offers a better guarantee that marketing messages will make it
through the clutter at a time when electronic filters are becoming increasingly successful
in blocking unsolicited e-mail. 60 The most successful direct marketing campaigns
combine the physical and the digital.

BCG found that increasing use of online search ads and banner ads is reducing
acquisition direct mail (to acquire new customers), while e-mail to existing customers is
replacing retention direct mail (to keep current customers). A study by e-mail marketing
vendor ExactTarget61 found that 56 percent of young consumers, especially women,
subscribe to a retailer’s e-mail newsletter in search of ongoing deals and 28 percent
turn to Facebook. The average American consumer receives 44 e-mails a day, 12 of
which they signed up to receive from companies. Consumers have become more
particular about what they choose to receive; thus, e-mail must be relevant or
consumers will unsubscribe (see Appendix J).

Books to E-books

E-book sales now make up 9 percent of the consumer book                                2010 was the year
market, up 193 percent over a year ago, according to the                               that e-books and
Association of American Publishers. The growth in e-books,                             e-readers turned a
similar to other transforming technologies, arises out of                              corner, selling
desire to decide where, when, and how to read books.                                   faster than
Amazon reported in 2010 that it was selling almost two times                           hardcover books
as many e-books for every hardcover book,62 and sales via                              at Amazon.




57
   “Is 2010 the Year Digital Will Eclipse Print Ad Spending?” Wired. March 2010.
www.wired.com/epicenter/2010/03/is-2010-the-year-digital-will-eclipse-print-ad-spending
58
   “The Power of Direct Marketing, ROI, Sales, Expenditures and Employment in the U.S., 2009-2010 Edition,” DMA.
59
   “Projecting U.S. Mail Volumes to 2020,” Boston Consulting Group. March 2010.
www.usps.com/strategicplanning/_pdf/BCG_Detailed%20presentation.pdf
60
   Hooper, R., et al. “Modernise or decline, Policies to maintain the universal postal service in the United Kingdom.”
Department for Business, Enterprise and Regulatory Reform, December 2008.
61
   “Young consumers use e-mail to find deals,” Internet Retailer. July 2010.
www.internetretailer.com/2010/07/01/young-consumers-use-e-mail-find-deals
62
   “Amazon: Kindle sales accelerating; Demand tipping point?,” ZDNet. July 2010.
www.zdnet.com/blog/btl/amazon-kindle-sales-accelerating-demand-tipping-point/36891


                                                          16
U.S. Postal Service Office of Inspector General                                               February 24, 2011
Part 1: Facts and Trends                                                                      RARC-WP-11-002


the Kindle store are expected to grow 195 percent to $701 million this year, according to
a study by Cowen and Co.63

Catalogs and Publications to Websites

One of the reasons that online shopping has been so successful in the United States is
due to its long history with catalog shopping. However, many large U.S. retailers are
beginning to reduce their use of catalogs due to the high cost of production and
delivery. JCPenney announced the elimination of its traditional catalog, but will continue
to use print to drive customers to its online store with category-targeted “Look Books,”
containing less merchandise and having no pricing details.64 Publications such as
The New Yorker magazine offer digital versions, which leverage the interactivity of the
Internet with animated covers, slideshows, and bonus content.65

Newspapers to Online News

The newspaper industry faces declining advertising revenues and circulation. Electronic
media threatens its relevance and publishers must reinvent their businesses to remain
successful. Newspapers have also lost lucrative classified ads to online sites such as
Craigslist that charge very few fees. However, the Pew Internet Report has identified a
trend in the synergy of multiple media that may help prolong the life of the newspaper
industry whereby more than a third (36 percent) of Americans gets their news from both
digital and traditional sources. News Corp., owner of the New York Post, is planning to
introduce a new national digital newspaper distributed exclusively via mobile handsets
and connected devices including Apple’s iPad.

The Future Is Always “On” — Mobile Technology Means Local Content, for Me,
Right Now

Explosive growth of smart phones, iPads, netbooks, and other                            Google
mobile devices has increased consumption of content on the go                           predicts that
and allowed marketers to get their content directly into the hands                      half of all web
of individuals wherever they are. The reality of mobile is that it                      traffic will be
enables customers to take on a more participatory role in the                           through a
communications they receive. In this new world, businesses need                         mobile device
the ability to enable relevance control. For small businesses, in                       by 2013.




63
   “Kindle, iPad Aren’t Mortal Enemies,” PC World. December 2010.
www.pcworld.com/article/212235/kindle_ipad_arent_mortal_enemies.html
64
   “J.C. Penney to Quit Catalogs,” Print CEO. September 2010.
printceo.com/2010/09/jcpenney-catalogs?utm_source=printceo&utm_medium=e-
mail&utm_campaign=weeklynewsletter
65
   “New Yorker Magazine Rolls Out iPad Edition,” Print CEO. October 2010. printceo.com/2010/10/new-yorker-
magazine-rolls-out-ipad-edition?utm_source=printceo&utm_medium=e-mail&utm_campaign=weeklynewsletter


                                                       17
U.S. Postal Service Office of Inspector General                                              February 24, 2011
Part 1: Facts and Trends                                                                     RARC-WP-11-002


particular, the next wave of digital marketing trends includes several new ways to build
closer customer relationships:66

        Better local ad targeting through geography-based advertising together with
         standard demographic or keyword targeting (e.g., Local.com, Facebook,
         Groupon, LinkedIn).
        More timely, relevant marketing through mobile tactics (SMS, MMS, e-mail and
         Mobile Web).
        Better ROI through online ad pricing based on customer action taken rather than
         cost per click.
        Wider exposure through online retail consolidators and highly targeted consumer
         retail sites.
        Increased brand credibility through social media advertising and unique
         applications.

According to ComScore, smart phone penetration is now at 19 percent in the United
States with 45 million active smart phones67 and an expected annual growth rate of
20 percent through 2013 (see Appendix K). 68 Almost one-third of customers currently
choose a smart phone over a regular phone, and Nielsen reports that smart phone
penetration will exceed 50 percent in the United States by 2011.69 Gartner recently
reported that by 2013, the combined installed base of smart phones and browser-
equipped enhanced phones will be greater than the installed base of personal
computers. Google claims that there has been a 500 percent70 growth in mobile search
in the past two years and boldly predicts that by 2013, half of all web traffic will be
mobile.

According to Forrester, 5 percent of mobile phone owners research products, 2 percent
receive coupons and promotions each month, and 2 percent purchase via mobile.71
Though these rates are low, the industry is set for significant growth. The mobile market
is very much a moment-of-need concept because it is time and location specific, making
it ideal for location-based search, services, and advertising. Location data, together with
weather and traffic, census data, demographics, psychographics, and customer
relationship management, is starting to be mined to build place profiles that can be used
to inform consumers about what is available to them where they are. Location-based


66
   “The Next Wave of Digital Marketing Trends,” Entrepreneur. May 2010.
www.entrepreneur.com/marketing/onlinemarketing/article206418.html
67
   “45 million U.S. Smartphone Users,” comScore. April 2010. metrics.admob.com/2010/04/45-million-us-smartphone-
users-comscore
68
   “Best Global Brands 2010,” Intebrand Study. www.brandwizard.com/Best_Global_Brands_2010_US.pdf
69
   “Nielsen: U.S. Smartphone Penetration to Be over 50% in 2011,” GPS Business News. March 2010.
www.gpsbusinessnews.com/Nielsen-US-Smartphone-Penetration-to-Be-over-50-in-2011_a2154.html
70
   “Google Outlines Mobile Trends at Advertising Week DC”, The Huffington Post. September 2010.
www.huffingtonpost.com/eric-shutt/post_904_b_735621.html
71
   “Millions of Americans are engaging in m-commerce, Forrester study finds,” Internet Retailer. September 2010.
pre.internetretailer.com/2010/09/23/millions-americans-are-engaging-m-commerce-forrester-says


                                                      18
U.S. Postal Service Office of Inspector General                                              February 24, 2011
Part 1: Facts and Trends                                                                     RARC-WP-11-002


services are expected to grow to $12.7 billion by 2013 and attract 18 percent of mobile
users, while mobile local ads are expected to grow to $2.02 billion in 2014.72

As mobile technology advances, there is a blurring of the lines between traditional
laptops and mobile phones, as device capabilities converge in new products such as
the iPhone and other smartphones. Companies know that developing applications that
can run on any device is important in a world where people are living multi-device
lifestyles. Amazon, for example, is seeing success by formatting its Kindle books to be
read on multiple devices and platforms such as Android, iPad, iPhone, or Mac.73 The
marketing and business world is responding by creating integrated advertising
strategies and cross-promotional concepts that focus on placing advertising messages
in multiple channels (including both print and digital) using tools such as “quick
response” codes — a type of bar code placed on advertisements, department store
displays, restaurant menus, and other material — that can be scanned with a mobile
device. Consumers can use the codes to download coupons, ads, or product
information, while companies can track individual responses.

Broader use of mobile devices is also a growing trend among business users.
According to the Yankee Group, there are approximately 78 million business wireless
subscribers in the United States, and this figure will grow to more than 90 million by
2013.74 Most noteworthy is the shift in the types of devices and applications preferred by
business users. BlackBerry smart phones, long considered the cornerstone of
enterprise mobility since they launched in 2002, are beginning to lose popularity and
market share to Apple and Android phones.75 BlackBerry has held onto share due to its
enterprise security platforms, but as users begin to blur their personal and work
activities, they are beginning to demand more user-friendly devices and applications in
both the office and at home. This convergence of technologies will no doubt have an
impact on the competitive technology landscape in years to come.




72
   “Mobile local ads are projected to hit $2.02 billion in 2014,” Internet Retailer. September 2010.
www.internetretailer.com/2010/09/30/mobile-local-ads-are-projected-hit-202-billion-2014
73
   “Why Amazon’s Kindle Will Eventually Win the e-Book Wars,” Gigaom. June 2010.
gigaom.com/2010/06/21/why-amazons-kindle-will-eventually-win-the-e-book-wars
74
   “Sprint Ranks Highest among Large Business Users in Wireless Voice and Data Satisfaction, Outperforming AT&T,
T-Mobile and Verizon in Study,” Business Wire. 2010.
www.thefreelibrary.com/Sprint+Ranks+Highest+among+Large+Business+Users+in+Wireless+Voice+and...-
a0216898355
75
   “Business smartphone users moving away from BlackBerry, study finds,” Visage Mobile. September 2010.
www.visagemobile.com/news/news/mobile-strategy-and-policy-news/5262/business-smartphone-users-moving-
away-from-blackberry-study-finds


                                                      19
U.S. Postal Service Office of Inspector General                                                 February 24, 2011
Part 1: Facts and Trends                                                                        RARC-WP-11-002


More Targeted, Personalized, and Measurable Marketing through Behavioral
Advertising

A major benefit of electronic marketing tools is the ability to offer more targeted,
personalized marketing communications to potential customers with an easy way for
them to respond. Advertisers must now consider many more simultaneous channels.
Internet advertising has evolved from basic banners and
                                                                      The new
keywords to a more advanced form of behavioral targeting
                                                                      battleground for
that allows advertising networks to collect information about marketers is
the online activities of a consumer for the presentation of           ensuring consumers
relevant ads. These networks gather data by observing                 receive content that
millions of consumers and tracking the sites visited and              is meaningful to
length of stay. These online firms claim that no personal             them.
data is stored, so each individual is anonymous.
Companies such as Yahoo, Google, and Akamai Technologies offer behavioral ad
targeting, which is expected to be a significant ad segment in the next few years.76
Digital advertising is powerful in that it lends itself to quantitative analysis and
measurable results. Canada Post has recently launched a digital direct marketing
network that delivers local offers and advertisements to consumers using location and
behavioral targeting.

As mobile devices continue to drive a linkage between the digital and physical worlds,
mobile search is set to become a high driver of in-store traffic. Research firm eMarketer
expects U.S. mobile ad spending to rise from $648 million in 2008 to more than
$3 billion by 2013. The keys to successful mobile marketing lie in the ability for a
marketer to grow their customer database and locate the target segments while leaving
the consumer more in control of the actual marketing content they receive (see
Appendix L).

The promise of mobile location-based advertising and marketing has been fairly slow to
materialize but is now gaining momentum as large national brands and local businesses
alike are racing to partner with innovative mobile service providers. The recession has
resurrected the coupon as a way for retailers to drive traffic into their stores. Groupon is
an example of a mobile advertising provider that targets, promotes, and sells coupons
for future purchases at local businesses, thereby generating immediate revenue for the
advertiser. In one case, Groupon ran a promotion for a small Boston restaurant that
resulted in the purchasing of discount vouchers by some 6,700 people in one day.77




76
   “Case study: Consumer Tracking on Levis.com,” BehavioralTargeting.Biz. April 2010. behavioraltargeting.biz/case-
study-consumer-tracking-on-levis-com
77
   The rise of Location-Based Personalized Shopping, Mobile Marketer, September 20, 2010.
www.mobilemarketer.com/cms/opinion/columns/7386.html


                                                        20
U.S. Postal Service Office of Inspector General                                            February 24, 2011
Part 1: Facts and Trends                                                                   RARC-WP-11-002


M-commerce Is the Way of the Future

Although mobile commerce (m-commerce) has developed slowly, the category is set to
grow significantly as a tool for marketing, retail, finance, and payments. Mainly used for
information gathering to date, retailers are now starting to leverage mobile technologies
to convert browsers into buyers. According to Deloitte’s 25th Annual Holiday Survey
2010, 17 percent planned to use their mobile phones during the holiday shopping
process, and among those, more than half plan to use their phones to compare prices
                         or find store locations compared to 46 percent that plan to look
  Mobile commerce        for product information and 42 percent that will actually make
  (“m-commerce”)         purchases.78
     is considered to
     be the next big      While mobile payments are well-established in other countries,
     thing for            they remain at an early stage in the United States. To encourage
     marketing,           mobile payments, Visa has released a contactless payWave
     commerce, and        payments technology pilot for commuters in New York and
     payments in the
                          Los Angeles. A small electronic chip embedded in the mobile
     evolution of the
     digital world.       phone or payment card communicates with contactless readers
                          at the fare gate and on the bus so that transit riders can make
payments by simply holding their device up to a fare reader. One may reload the phone
or cards online or over the phone.79 ABI Research claims that mobile financing,
including mobile person-to-person payments, is “the next big thing,” and predicts there
will be almost a half-billion mobile financial customers in 2013.80

With online banking gaining momentum, it isn’t hard to make the jump to mobile
banking. Bank of America reports that 17 percent of its online banking customers
already use mobile services such as alerts to review balances, and Smartphone
applications to view transactions, pay bills, or even make deposits by taking a photo of a
check. 81 Financial institutions have already developed a small but growing number of
iPhone applications, and consumers will continue to expect more functionality in their
mobile devices. Some estimates predict that by 2013 there will be almost a half-billion
mobile financial customers, including mobile peer-to-peer payments. Despite its slow
growth rate, m-commerce is expected to reach $18 billion by 2013. 82




78
   “Deloitte’s 25th Annual Holiday Survey,” Deloitte. November 2010.
www.deloitte.com/view/en_US/us/Industries/Retail-Consumer-
Business/da7f6d847113c210VgnVCM3000001c56f00aRCRD.htm
79
   “Visa launches contactless payment trials for commuters in New York, Los Angeles,” The Paypers. September
2010. www.thepaypers.com/news/mobile-payments/visa-launches-contactless-payment-trials-for-commuters-in-new-
york-los-angeles/742042-16
80
   “Mobile Banking is an Enormous Growth Market,” L’Atelier. March 2009.
www.atelier-us.com/mobile-wireless/article/mobile-banking-is-an-enormous-growth-market
81
   “Full Service Mobile Banking,” CMS Wire. September 2010.
www.cmswire.com/cms/enterprise-20/mobile-enterprise-more-mobile-banking-marketing-trends-008604.php
82
   “Google Outlines Mobile Trends at Advertising Week DC,” The Huffington Post. September 2010
www.huffingtonpost.com/eric-shutt/post_904_b_735621.html


                                                     21
U.S. Postal Service Office of Inspector General                                                 February 24, 2011
Part 1: Facts and Trends                                                                        RARC-WP-11-002


Gaps in the Digital Age
The digital revolution has ushered in many enhancements to the world of
communication and commerce. Citizens and businesses all over the globe can now
communicate and transact instantly and cheaply. But for many consumers, the digital
world is imperfect. The Internet was designed as a channel for the exchange of ideas
among trusted parties, not as a means for commerce. As new online tools and
capabilities roll out, it introduces new shortcomings in the infrastructure.

This section begins with a look at the significant segments of society that remain left
behind and others likely to join this group as the digital revolution continues. The section
also briefly summarizes four other shortcomings including the challenges of keeping the
digital platform “neutral,” the lack of an adequate level of privacy, confidentiality,
dependability and security in digital communications and transactions as desired by
citizens, the information overload and continuing lack of adequate tools to manage
personal information, and finally, the need for a secure and convenient platform for
financial transactions. Neither the digital or the physical world seem to be perfect; each
has its own weaknesses and strengths. Digital communications are quick and cheap but
they are often not secure and not always private. Providers of online services may come
and go depending on economic cycles, acquisitions and other factors, disrupting life for
businesses and consumers alike. Physical mail is secure and private, but it is more
expensive and slower. The question at hand is how to forge a symbiotic relationship that
combines the desirable characteristics from both media while building a platform that
harnesses the positive synergetic effects of both worlds.

The Internet and Its Consumer Tools Are Not Available to All Citizens

While the federal government has established a principle of universal service in the
physical world, that principle does not yet exist in the electronic world in the United
States. With the shift in both commerce and communications toward electronic
channels, those without access to high-speed Internet (due to either cost, aptitude, or
access) could be on the wrong side of the digital divide. Despite widespread adoption
globally, there remain groups of people that are unable to, or choose not to, access the
Internet. Currently, one quarter of the U.S. population does not use the Internet while a
third does not have high-speed access.83 According to a recent OECD study, in the
United States, growth in home broadband access has slowed and currently sits at 66
percent, up only 3 percent from 2009 — putting the nation in 15th place for the
proportion of citizens with high-speed access (see Appendix M).84




83
 “Internet World Stats Usage and Population Statistics,” www.internetworldstats.com/am/us.htm
84
 “U.S. lagging behind other countries in broadband access,” Bloomberg News. June 2010.
www.tampabay.com/news/business/economicdevelopment/article1099580.ece


                                                       22
U.S. Postal Service Office of Inspector General                                                     February 24, 2011
Part 1: Facts and Trends                                                                            RARC-WP-11-002



                     Figure 3: Internet Users (Per 100 People), 1990-2008


  80
  60
  40
  20
   0




                                   World          US           Low Income

Source: The World Bank, 2008 data.worldbank.org/indicator/IT.NET.USER.P2/countries/1W-US-XM?display=graph


However, broadband access is just one measure of the digital divide. As the developing
world has shown us through its leap to the adoption of mobile telecommunication,
consumers will have more options for connecting as technology becomes cheaper. The
rise in the use of the mobile Internet points towards a shift from a PC-based to mobile-
based Internet economy. Mobile phone penetration rates may have an increasingly
significant impact on bridging the digital divide. Both government and technology
leaders have a role to play in helping to reduce the digital divide. By working together,
they can seek appropriate means to leverage technology to bridge the existing barriers.
Many of these barriers are not technical in nature and relate more to cost effectiveness
in service availability.

With the advance of mobile technologies, there are means to connect disparate
communities while reducing costs. In particular, the government has a role to play in
implementing a national digital strategy that increases
                                                             Both government
access to online government services, delivering the same and technology
personalization, choice, speed, and 24/7 access that         leaders have a role
consumers expect from private sector services. As            to play in helping
businesses and government turn increasingly towards the      to reduce the
Internet to provide information, products, and services,     digital divide — by
there is concern that some excluded groups will fall further increasing service
behind. The United States can benefit from the               availability,
experiences of other developed countries that have been      connecting
pursuing a digital strategy to help reach underserved        communities and
segments.                                                    reducing costs.


Potential Threat to the Principle of “Network Neutrality”

One of the key characteristics of the digital revolution is the ability of anyone — citizens,
businesses or governments — to be online. On the positive side, this sparks innovation
and encourages the market to determine what works and what does not. On the
negative side, it creates a muddled medium, with heavy traffic, full of platforms that


                                                          23
U.S. Postal Service Office of Inspector General                                             February 24, 2011
Part 1: Facts and Trends                                                                    RARC-WP-11-002


could operate with a bias towards a particular company’s customers or proprietary
technologies. In the end, there is no guarantee that platforms provide individuals, small
businesses, or large companies the same kind of treatment without preference and with
choice of control over services. At the same time, the neutrality needs to extend further.
The infrastructure should not pick winners or losers, whether the “contestants” are
applications or users. Otherwise, one ends up with a caste system, with customers
deemed more valuable receiving a higher level of service.

Lack of an Adequate Level of Privacy, Confidentiality, Dependability, and Security
in Digital Communications and Transactions

As the Internet has grown, so too has the need for privacy, confidentiality, dependability,
and security controls to protect users. These controls are needed to encourage full
electronic adoption of sensitive transactions such as in banking, medical, and
                         government services. Without an internationally accepted
  Individuals
                         standard for user authentication and identity management,
  currently lack
  standardized,
                         businesses    have developed their own level of security based on
  trusted security       their needs and the perceived needs of their users. Privacy of
  processes and          personal   information and identity management may hinder
  tools to manage        further  growth  in Internet platform usage for commercial
  their own identity     purposes. The inability to know, with assurance, with whom you
  or enable              are dealing at the other end of a transaction or communication
  personal controls      limits the level of activity. This distrust remains a serious barrier
  on the Internet.       to increased productivity and economic growth.

In the past few years, there has been much debate over Internet security. While all
parties agree that it is needed, the critical questions are around the degree of control
and who should maintain the control. Individuals are generally very sensitive about
protecting their online activities, and are wary of handing too much information to
businesses or governments. Most agree that they have a different tolerance level for
perceived security risk based on their particular activity on the Internet. A look across
demographics finds that fears of online security exist among all age groups, but what
people actually choose to do to protect their identities differs. Many older users do not
go online because they do not trust that their transactions will be safe. Even
Generation Y expressed concern in a recent survey with 89 percent of respondents
believing that identity theft is a growing problem in our society and less than half of the
respondents feeling safe sharing personal or financial information online.85 The key will
be providing a context-aware, consumer-controlled identity management capability.

Changing technologies also shift consumer concerns. While PC security is a priority,
smartphone security has yet to receive the same level of attention and faces increasing
threats.86 Although the actual number of attacks on mobile devices is low compared to

85
   “Generation Y Online Security Survey Conducted by TRU Research,” sponsored by RSA (EMC). April 2010.
www.rsa.com/maintainmyprivacy/Gen_Y_Int_Sec_Surv_Res_TRU_RSA.pdf
86
   “Cyber criminals target Smartphones as malware increases by a third in 2010”, AdaptiveMobile, 15 Dec 2010,
www.adaptivemobile.com/press-centre/press-releases/cyber-criminals-target-smartphones-as-malware-increases-by-
a-third-in-2010


                                                     24
U.S. Postal Service Office of Inspector General                                                  February 24, 2011
Part 1: Facts and Trends                                                                         RARC-WP-11-002


other platforms, attacks are on the rise as mobile phones become more Web-capable
and used for daily financial transactions. Social networking privacy concerns have
ballooned over several recent shifts in Facebook’s privacy policy and settings, and the
efforts by some large companies to manage online traffic have sparked new concerns
over whether there will be a large entities governing the once-free world of
cyberspace.87 In fact, the Federal Trade Commission and Congress have grown
concerned over privacy issues and are considering “do not track” legislation, with a bill
introduced in the House in February.

Inadequate Personal Information Management Tools

With the vast amount of information available on the Web and the explosion of e-mail,
users have become overwhelmed with searching and finding information that is relevant
to them. Some of the latest Internet innovators are those focused solely on developing
unique Internet management applications and services that can help people decipher
the “good from the bad” and organize it in a way that increases their Internet
productivity. This includes acting as a curator for personal information, storing financial
transactions, health records, and other key data, and providing efficient delivery of
information when needed.

Both consumers and business people alike are growing              There is a need for a
increasingly wary of e-mail overload. According to The            “universal e-mail
Radicati Group, the typical corporate user sends 36 e-mails service” that can
                                                                  help consolidate
and receives 61 legitimate e-mails a day. The average user
                                                                  consumers’ e-mails
has 1.6 e-mail accounts, with 75 percent of all e-mail            for ease of
accounts belonging to consumers and 25 percent to                 management.
corporate users. Many people have multiple e-mail
accounts to help manage and prioritize their messages, such as a work account, plus
personal primary, secondary and marketing accounts; and 17 percent of Americans
create a new e-mail address every 6 months.88 To manage this overload some are
forwarding multiple e-mails to one location while others are looking for a “universal e-
mail account.” Several models have recently entered the market, such as Google’s
Priority Inbox feature, which prioritizes e-mail based on algorithms and mailbox habits,
and Zumbox’s digital mailbox for every U.S. postal address.

Insufficient Availability of Affordable Digital Currency as Well as Secure and
Convenient Financial Tools

Financial shortcomings (both in terms of secure tools for payment, and seamless cross-
border payments) are arguably one of the most significant gaps in the digital economy.
Multiple electronic bill presentment and payment methods have emerged due to a lack
of consistency and centralization by billers and banks and a lack of clear industry
standards. Analysts agree that online banking payments will dominate in the future, as

87
  “Best Global Brands 2010,” Interbrand Study. www.brandwizard.com/Best_Global_Brands_2010_US.pdf
88
  “E-mail Statistics Report,” Radicati. 2010. www.radicati.com/wp/wp-content/uploads/2010/04/E-mail-Statistics-
Report-2010-2014-Executive-Summary2.pdf


                                                        25
U.S. Postal Service Office of Inspector General                                               February 24, 2011
Part 1: Facts and Trends                                                                      RARC-WP-11-002


shown in more mature e-payment markets such as Canada and the United Kingdom.
Ideally, consumer channel preference would enable both presentment and payment.89
Businesses, particularly small-to-medium sized, still feel a sense of security and control
by using paper-based invoicing, and with a lack of uniform international invoicing and
content presentation formats, many fear the high cost of implementing an e-billing
solution.90

Though business’ use of checks is on the decline (81 percent in 2004 to 74 percent in
2007), paper checks still account for the majority of commercial payments in the United
States, leaving significant opportunity to streamline enterprise payables with electronic
processes. For example, New Jersey will replace weekly unemployment checks with
debit cards or direct deposit, saving the state as much as $8 million a year.91 Finally
those who have less access to debit and credit cards — the financially challenged and
new immigrants — are at a further disadvantage as individuals are increasingly charged
predatory fees as they move money from digital to paper and back.


Key Realities for the Future

What Does the Future Look Like? — A Vision for 2020

As we reflect on the last decade of change in the transition to the digital economy, there
is no question that the postal industry will continue to face further changes in its
operating environment over the next decade and beyond. As digital natives join the
workforce and become active contributors to the economy, their paperless behaviors
will have a profound impact on many aspects of the postal business as we know it
today:

        Mobile technology will become further entrenched in society as the main mode of
         Internet activity, electronic communications, and commerce. Innovation will
         continue to create new ways of communicating.
        Online trust could be redefined through integration of social, business, and
         government networks, reinforced with recognition of the legal status of qualified
         electronic communications.
        Consumers will demand a more seamless and secure method of receiving
         communications and paying for services from businesses and governments. If it
         is not available electronically, it will not be needed or desired by a significant
         portion of the population.
        Despite the advances in digital communication, physical delivery will still be
         essential for some consumer and business applications. The continued


89
   “E-billing: Understanding the Adoption Barriers,” TM Forum. www.tmforum.org/ArticleEbilling/8746/home.html
90
   “Finsights: Enterprise Payments,” Infosys. www.infosys.com/FINsights/Documents/pdf/issue3/FINsights-Chp6.pdf
91
   “N.J. ending use of checks for jobless benefits,” Philly.com. October 2010.
www.philly.com/philly/news/new_jersey/20101028_N_J__ending_use_of_checks_for_jobless_benefits.html


                                                       26
U.S. Postal Service Office of Inspector General                              February 24, 2011
Part 1: Facts and Trends                                                     RARC-WP-11-002


        shortcomings in the digital world will help physical mail retain and enhance its
        value.
       Consumers will demand simpler, faster, and cheaper e-commerce capabilities
        from retailers globally — brands that deliver secure and convenient cross-border
        shopping, shipping, and return services will prevail.
       Personal correspondence mail will continue to be a very small percentage of total
        mail sent, while business and government communications will continue to shift
        to an electronic format, further reducing the amount of First-Class Mail. While
        both First-Class and Standard Mail will continue to exist, the “two-way” nature of
        the physical mail channel will decline as businesses and governments invest in
        their own secure communications solutions.
       Standard Mail will need to be ever more targeted, relevant to consumers’ needs,
        and integrated with multiple channels of communications to retain its value, while
        consumers will require choice in the communication they receive and control over
        how they receive it.

Redefining the Postal Ecosystem

The “postal ecosystem” can be defined as the markets, applications, and processes that
have traditionally involved in one way or another, the Postal Service and its sending and
receiving customers, partners, third party consolidators, and vendors. With the changing
competitive dynamics of the communications, media, and technology industries, the
postal ecosystem is evolving. Those with a future stake in postal services will need to
understand these new dynamics and be able to envision the enabling platform and key
applications, products, and services in 2020 to identify viable roles.

The relative decline of traditional mass media (print, radio, TV), and the shift to
individualized production of content are fundamental changes in both business models
and behavior. With the right tools, control will be in the hands of the individual to choose
what, when, where, and how for their personal, businesses, and government
correspondence. About a decade ago, the providers of content were traditional media
publishers, journalists, and authors who distributed their content through traditional
channels. This landscape has changed from a top-down model to a bottom-up playing
field, where anyone can become an author and any type of organization can become a
distributor. This has radically changed the traditional postal ecosystem, but may prove
to be the core of the digital postal ecosystem.


A Look Overseas
As companies continue to move toward paperless transactions and paperless
advertising, postal organizations must figure out how they can remain relevant. Many
European posts have already embraced this position and invested both money and
effort into developing a strategy. Here’s a cross-section of strategies and products from
a number of international posts:



                                                  27
U.S. Postal Service Office of Inspector General                                   February 24, 2011
Part 1: Facts and Trends                                                          RARC-WP-11-002


Itella — Finland Post (Netposti)

With support from the Finnish Government and local businesses, NetPosti, an
alternative to a physical mail box coupled with file archiving, is proving to be an
attractive service with nearly 500,000 users and a penetration rate equaling almost
12 percent of the population. Finns are significant users of electronic services. With
NetPosti, each citizen is provided with an account tied to his or her social security
number and an e-mail address. The government also provides NetPosti with every
resident’s physical address which is automatically updated if a citizen moves.

NetPosti has signed a cooperation agreement with the leading Finnish online payment
solutions provider, servicing more than 1,500 Finnish online stores. Consumers can
simply click an invoice button and receive a receipt of their online purchases directly at
their NetPosti account.

In an effort to cut costs and emissions, Finland Post is experimenting with the concept
of a secure digital mailbox where a number of households and businesses have
volunteered for the trial. Consumers receive an e-mail or a mobile phone text message
when their mail has been opened, scanned, and sent as a PDF file to a secure digital
mailbox. Scanned mail is also delivered to physical addresses, although service is
reduced to twice a week at residential addresses and three times a week to mailboxes
at local stores. Envelopes are analyzed and mail such as bankcards and voting ballots
are filtered out for physical delivery.92

Canada Post

In 2010, Canada launched a digital economy strategy to drive the adoption of new
technology and encourage innovation while protecting the rights of Canadians through
the strengthening of intellectual property and copyright laws. Policies and programs
could be adjusted, where appropriate, to maximize Canadian success in the digital
economy. Additionally, the public sector was requested to lead by example as the
model users of digital technologies.93

Canada Post embraced the government’s strategy in transitioning to digital. It
introduced a Comparison Shopper portal that will give Canadian consumers access to a
wealth of retailers and products across Canada and the United States while simplifying
the online shopping experience. Consumers will benefit from being able to research and
compare the most current prices and features, and make purchases from a much
broader spectrum of retailers than previously possible, all at a simple price that includes
taxes, shipping, and other cross-border fees. Additionally, Canada Post’s Borderfree
e-commerce and cross border delivery platform provides a hosted check-out service for
U.S. retailers to improve their international customer experience – specifically for
Canadian customers.

92
  Finland Netposti, 2010. www.posti.fi/english/netposti
93
  “Improving Canada’s Digital Advantage,” Government of Canada. de-en.gc.ca/wp-
content/uploads/2010/05/Consultation_Paper.pdf


                                                     28
U.S. Postal Service Office of Inspector General                                February 24, 2011
Part 1: Facts and Trends                                                       RARC-WP-11-002


Canada Post offers a free bill presentment service called epost, where consumers can
add, pay, view, and manage over 200 types of bills and other documents such as
phone, water, cable, and credit cards, all online. An epost mailbox is a secure, Internet-
based virtual “Inbox” where users can receive, add, pay, print, and manage bills and
other important financial documents. Epost is closely integrated with the major online
banking websites in Canada. If a user has signed up to view billing statements
electronically via an online banking website, then they are automatically signed up with
epost. Canada Post is currently developing plans for “epost 2.0,” an extension of the
existing service to become an integrated multi-channel communication solution to help
address the erosion of physical mail and resolve consumer and business problems with
the electronic channel in Canada.

Poste Italiane

Poste Italiane has developed an advanced technological infrastructure: over 80 percent
of correspondence is sorted using automated systems, a central structure controls the
whole logistics process, and delivery is guaranteed by an “electronic postman”,
equipped with a palmtop computer and a small printer. Over the past decade, Poste
Italiane has made large investments in technology to modernize and expand its offering
of products and services while utilizing multiple access channels including Internet,
telephone, self-service kiosks, and will soon even offer them through Digital Terrestrial
TV (DTT).

Poste Italiane’s e-government strategy is aimed at reducing the digital divide by
positioning the company as the bridging platform between the physical and electronic
world and at simplifying and improving the average citizen’s experience with
government services.

The implementation of this strategy included the creation of platforms enabling the
secure and certified offering of hybrid and electronic-based communications and
transactions and the provision of new additional physical and electronic channels for
accessing and delivering government services. For example, special counters (called
“Sportello Amico”) are available at some 5,740 post offices which provide a range of
government products and services such as the issuance of passports and residency
permits as well as the issuance via debit cards of welfare and pension payments.

Other examples of e-government services include:

       A certified e-mail box (a channel for the exchange of communications and
        documentation with legal value between federal and local governments and
        citizens). The certified e-mail box includes identity authentication using digital
        identity or digital signature, timestamps, and proof of sending and delivery).

       Digital identity authentication services to access government websites.

       Time-stamping services offered upon request to governments and citizens to
        certify the validity of financial transactions and hybrid communications.


                                                  29
U.S. Postal Service Office of Inspector General                             February 24, 2011
Part 1: Facts and Trends                                                    RARC-WP-11-002


       Electronic invoicing that government contractors can use (with the Poste Italiane
        platform) to bill the government and receive payment. Poste Italiane archives the
        electronic copy of each invoice.

       Scanning and electronic archiving (or physical archiving by postal facilities) of
        government documents and communications. Electronically archived documents
        are “sealed” with an electronic postmark (e-postmark).

In 2007, Poste Italiane entered the telecommunications market as a mobile virtual
network operator making possible for customers to use their cell phone to pay their bills,
send telegrams, letters, and registered mail, pay for transport, send postcards created
from an MMS, and track their mail.


Conclusion — The Postal Service as a “Bridging” Platform
In order to enable an open but secure environment, the future postal role will involve an
interdependent relationship between various types of organizations from both the public
and private sectors. Providing platforms for the greater good at the lowest possible price
is inherently a government service. Given its current mandate, the potential exists for an
overarching role for the Postal Service as an open, neutral “platform” to facilitate
Internet service advancement and enhancement in the communication and commerce
realms.

The Postal Service must identify elements of the new economy that are best delivered
by an impartial intermediary that has a mandate to provide agenda-free services to
citizens — and then invest appropriately to position itself to be this intermediary: a
de facto national service provider. Corporations may be more agile and have proven
innovation processes to develop a digital platform offering identity authentication,
security management, universal communications delivery, or integrated billing and
payments. But the Postal Service, while limited due to size and historical business
models, has the advantage of being a trusted intermediary. Together with the private
sector, it could create game-changing services. The ability to learn from and work
across the private and public sectors is crucial for the Postal Service to continue to be a
“platform provider,” bridging the physical and digital worlds and closing the gaps that are
currently preventing a fully digital economy.

Some essential gaps do exist in the digital era that postal operators may be able to fill,
leveraging their strong trusted brand, reach, and scope of service. Some of these
applications, such as e-commerce facilitation, trusted third-party identity certification,
location-based services, mobile marketing, and secure e-mail, already exist in the
marketplace, but many do not adequately meet the needs of all users. Working with
other government agencies, leading Internet service providers, and Internet
intermediaries, the Postal Service may have the opportunity to set a new direction that
could fill such “gaps” in the marketplace and lead the next expansion of the digital age.




                                                  30
U.S. Postal Service Office of Inspector General          February 24, 2011
Part 1: Facts and Trends                                 RARC-WP-11-002




                                            Appendices




                                                  31
U.S. Postal Service Office of Inspector General                                                          February 24, 2011
Part 1: Facts and Trends                                                                                 RARC-WP-11-002




Appendix A                  U.S. Retail E-commerce Sales

         Figure 4: Quarterly U.S. Retail E-commerce Sales as a Percent of Total Retail Sales




Source: U.S Department of Commerce, 2010 http://www.census.gov/retail/mrts/www/data/pdf/ec_current.pdf




                Table 4: U.S. Shipments, Sales, Revenues, and E-commerce, 2007-2008




Source: U.S. Census Bureau, 2010. www.census.gov/econ/estats/2008/2008reportfinal.pdf




                                                            32
U.S. Postal Service Office of Inspector General                                         February 24, 2011
Part 1: Facts and Trends                                                                RARC-WP-11-002




Appendix B                  E-retailing Merchandise Categories, 2007-2008
                          Table 5: U.S. Retail Trade Sales, Total and E-commerce




Source: U.S. Census Bureau, 2010. www.census.gov/econ/estats/2008/2008reportfinal.pdf

                         Table 6: U.S. Electronic Shopping and Mail-Order Houses




Source: U.S. Census Bureau, 2010. www.census.gov/econ/estats/2008/2008reportfinal.pdf




                                                            33
U.S. Postal Service Office of Inspector General                              February 24, 2011
Part 1: Facts and Trends                                                     RARC-WP-11-002




Appendix C                  DHL Packstation Concept

                                      Figure 5: Example of DHL Packstation




DHL/Deutsche Post has placed around 2,500 Packstations around Germany. After
registering to use the Packstation service, users may choose whether they want a
package delivered to a home address or to any Packstation. Parcels can also be sent
via the Packstation and offer users a savings on postage.
Source: DLH website. www.dhl.de/en/paket/privatkunden/packstation.html




                                                             34
U.S. Postal Service Office of Inspector General                                                      February 24, 2011
Part 1: Facts and Trends                                                                             RARC-WP-11-002




Appendix D                   U.K. Postal Sector Mail Product Lifecycle
                        94
The Hooper report has demonstrated the impact of increased electronic substitution and
demographic changes on the U.K. postal sector’s mail product life cycle (see chart below). In
analyzing the results of a 2009 mail volume study conducted by The Boston Consulting Group,
the Postal Service is seeing similar trends in the growth and maturity of its categories of similar
mail products.



                     Figure 6: Stages of the Life Cycle for Different Mail Applications




                                            Source: The Hooper Report, 2008.




94
   Hooper, R., et al. “Modernise or decline, Policies to maintain the universal postal service in the United Kingdom.”
December 2008.




                                                           35
U.S. Postal Service Office of Inspector General                                                       February 24, 2011
Part 1: Facts and Trends                                                                              RARC-WP-11-002




Appendix E                  U.S. Postal Service Mail Volume Forecasts for 2020

                     Table 7: U.S. Postal Service Mail Volume Forecast – Businesses

                 Businesses Sending Mail (Combined Categories)
                Year           2009             2020 Forecast                                      Change
  Total Mail Volume         177 Billion           150 Billion                                    -27 B (-15%)
                       Share of       Total  Share of       Total                                   Overall
                      Total Mail    Volume  Total Mail    Volume                                     -23 B
 Category of Mail        84%         154 B     89%         131 B                                    (-15%)
Business Mail Sent to    27%          48 B     20%          30 B                                     -38%
         Consumers
        Payments Sent              3%               6B              1%               2B               -67%
  General Mail Sent to             2%               4B              2%               3B               -25%
  Businesses (B-to-B)
           Ad Mail Sent            47%             80 B             57%             83 B               +4%
         Catalogs and             11%              20 B             11%             16 B              -20%
       Magazines Sent
Note: Segments do not total to 177 billion in 2009 and 150 billion in 2020 due to rounding.
Source: The Boston Consulting Group. 2010. www.usps.com/strategicplanning/_pdf/BCG_Detailed%20presentation.pdf




                    Table 8: U.S. Postal Service Mail Volume Forecasts – Consumers

                                      Consumers Sending Mail
                 Year                   2009             2020 Forecast                             Change
   Total Mail Volume                 177 Billion           150 Billion                           -27 B (-15%)
                                Share of       Total  Share of       Total                          Overall
                               Total Mail    Volume  Total Mail    Volume                             -7 B
  Category of Mail                10%          18 B     8%           11 B                           (-39%)
   C-to-C Social Mail              3%           5B      3%            4B                             -22%
                Sent
  General Mail Sent to             2%               4B              2%               3B               -24%
          Businesses
        Payments Sent              5%               9B              3%               4B               -57%
Note: Segments do not total to 177 billion in 2009 and 150 billion in 2020 due to rounding.
Source: The Boston Consulting Group. 2010. www.usps.com/strategicplanning/_pdf/BCG_Detailed%20presentation.pdf




                                                           36
U.S. Postal Service Office of Inspector General                                                       February 24, 2011
Part 1: Facts and Trends                                                                              RARC-WP-11-002




            Table 9: U.S. Postal Service Mail Volume Forecasts – Businesses (Expanded)

                      Businesses Sending Mail (Expanded Categories)
                         Year          2009                2020 Forecast                                         Change
                                     177 Billion             150 Billion                                          -27 B
           Total Mail Volume                                                                                     (-15%)
                                Share of       Total    Share of       Total                                     Overall
                               Total Mail     Volume   Total Mail     Volume                                      -23B
       Category of Mail           84%          154 B      89%          131 B                                     (-15%)
            Bills / Invoices Sent            12%                22 B             8%               12 B            -44%

           General Mail Sent to               8%                14 B             7%               11 B            -24%
           Consumers (B-to-C)

        Bank Statements Sent                  5%                8B               3%                4B             -47%

                 Payments Sent                3%                6B               1%                2B             -46%

           General Mail Sent to               2%                4B               2%                3B             -24%
           Businesses (B-to-B)

      First-Class Ad Mail Sent                7%                11 B             5%                8B             -30%

        Standard Ad Mail Sent                18%                32 B            26%               38 B            +18%

                      Flyers Sent            14%                24 B            18%               26 B            +10%

                   Catalogs Sent              7%                12 B             6%                9B             -29%

                Magazines Sent                4%                8B               5%                7B             -17%

      Other (Large Envelopes,                 8%                13 B             8%               11 B            -15%
      Newsletters, Postcards)
Note: Segments do not total to 177 billion in 2009 and 150 billion in 2020 due to rounding.

Source: The Boston Consulting Group. 2010. www.usps.com/strategicplanning/_pdf/BCG_Detailed%20presentation.pdf




                                                           37
U.S. Postal Service Office of Inspector General                                February 24, 2011
Part 1: Facts and Trends                                                       RARC-WP-11-002




Appendix F               Challenges of Digital Communications

Despite the myriad of benefits associated with using electronic media for personal or
business communications, it poses a variety of challenges that prevent user adoption
and drive the continued use of traditional methods such as mail or fax. As electronic
solutions evolve, they must overcome these challenges to become an effective
replacement for print:

        The need for a physical signature for legal proof: Contracts, applications,
         and credit card authorizations are good examples of documents that continue to
         require a physical signature for proof of transaction or authorization, thereby
         forcing people to continue using postal mail, fax or courier.
        Concerns over privacy: Many users are not yet convinced that the Internet is a
         safe means of communications, particularly for banking information or credit card
         details. Many consumers will opt to use the telephone or fax machine to place
         orders despite secure online payment methods and secure e-commerce sites.
        E-mail abuse and unsolicited spam: Despite the convenience of e-mail, many
         users have become overwhelmed with the amount of e-mail received, in
         particular unsolicited e-mail, which has been known to drive some to declare
         “e-mail bankruptcy.” They simply stop using the e-mail account in question, sign
         up for a new address and start over to avoid having to deal with unwanted
         communications. Users have become increasingly skeptical of giving their e-mail
         address to organizations for fear of being inundated with unsolicited messages.
         Many people opt to have one account for true personal communications, a
         second for business/work and yet a third for marketing offers. Marketers know
         this and often turn to direct mail as a way of breaking through the clutter to target
         customers with a more tangible, personalized message.
        Multiple e-mail addresses, logins, and passwords: Each service provider
         wants to draw users directly to its own biller direct site, thinking that more
         eyeballs on its site is the way to achieve success. Users must create and
         manage a multitude of logins and passwords to gain access to different services,
         and with no centralized identity management system, they often find it too
         complex and opt for paper communications instead. Those who do go electronic
         typically re-use their favorite credentials thereby posing a security risk. Security
         vendor Trusteer found that 73 percent of web users were re-using the password
         for their online bank sites to access at least one other website.”95
        Malware, viruses, and phishing: While unwanted e-mail and other messages
         clog up mailboxes, information and identity theft that are delivered through e-mail
         are greater threats to computer systems. Unwary users can provide information
         or access to thieves just by opening a simple attachment or e-mail message.



95
 “Too many people re-use logins, study finds,” Network World. February 2010.
www.networkworld.com/news/2010/020410-too-many-people-re-use-logins.html


                                                      38
U.S. Postal Service Office of Inspector General                                                      February 24, 2011
Part 1: Facts and Trends                                                                             RARC-WP-11-002




Appendix G                 E-billing Adoption Barriers

The main reasons why e-billing has not become 100 percent mainstream is because of
the perceived complexity and inconvenience users face when dealing with multiple
billers and inflexible processes. In the biller-direct model, customers are required to
register for and remember a multitude of usernames and passwords in order to access
all of their electronic bills. This “push” model of insisting that recipients “fetch” their
billing data is the same as the postal service asking consumers to collect their letters
from various warehouses around the country. While customers are willing to go
paperless, Forrester Research believes they will not take the initiative to eliminate paper
without an adequate incentive.96 Large companies, such as utilities, are beginning to
offer their customers financial incentives to receive statements and pay bills online, but
are likely to continue using bulk mail products for a number of years yet, while they
remain committed to offering customers a choice between e-mail and paper
statements.97

        84 percent of consumers still receive paper statements
        70 percent can be convinced to give up paper for electronic
        35 percent would turn off paper if e-statement printing was easy
        33 percent would turn off paper if saving it locally was easy

According to billing solutions provider Striata, in order to migrate more users to e–billing,
billers need to change the model and communicate bills the way the user wants and
needs — by sending the e-bill to their designated inbox. The e-bill should look the same
as the paper bill that customers are used to, and they should be able to view and pay it
online in under 30 seconds, or save it and pay it later. All that is required is the
customer’s e-mail address. Businesses must make participation easy and adoption
rates will increase accordingly.98


Some Billers Begin to See Success

As a result of understanding and applying the new “push” model, some billers are
starting to achieve success. The municipal utilities in the city of Tallahassee exceeded
their 3-year paper bill suppression target in just 10 months.99 U.S. banks are
increasingly moving to electronic documents and in many cases implementing
“electronic by default” policies, whereby customers must contact the bank if they wish to



96
   “How to get more people enrolled in electronic billing,” Striata. www.striata.com/resources/news-and-press-
releases/how-to-get-more-people-enrolled-in-electronic-billing.html?LCM
97
   Hooper, R., et al. “Modernise or decline, Policies to maintain the universal postal service in the United Kingdom.”
December 2008.
98
   “How to Buck the Dismal eBilling Adoption Trend,” Striata. www.striata.com
99
   “City of Tallahassee Suppresses 17% Paper Bills in 18 months,” Striata. www.striata.com/resources/news-and-
press-releases/city-of-tallahassee-suppresses-17-percent-paper-bills-in-18-months.html


                                                           39
U.S. Postal Service Office of Inspector General                                    February 24, 2011
Part 1: Facts and Trends                                                           RARC-WP-11-002


continue to receive a printed statement each month. Some will continue to offer it for
free, while others are beginning to charge for it. 100


Paperless Statements

Going paperless will not be achieved without providing value to the consumer. Current
solutions require the consumer to change habits and in some instances incur increased
inconvenience, while the biller saves paper, printing, and postage costs. The
convenience factor is considerable. In the United States, household bill consolidation
does not yet exist, therefore consumers must go to several websites, open up online
accounts and then make several steps to retrieve their statements rather than simply
receiving, and opening an envelope.




100
  “Going paperless can stop fees from banks,” The Post and Courier. August 2010.
www.postandcourier.com/news/2010/aug/22/going-paperless-can-stop-fees-from-banks


                                                    40
U.S. Postal Service Office of Inspector General                                                       February 24, 2011
Part 1: Facts and Trends                                                                              RARC-WP-11-002




Appendix H                Change in U.S. Advertising Expenditures

                      Table 10: U.S. Advertising Expenditures by Medium, 2009




                  Source: Congressional Research Service, 2009. www.fas.org/sgp/crs/misc/R40908.pdf



                   Table 11: U.S. Advertising Expenditures by Industry, 2008-2009




                  Source: Congressional Research Service, 2009. www.fas.org/sgp/crs/misc/R40908.pdf




                                                         41
U.S. Postal Service Office of Inspector General                                              February 24, 2011
Part 1: Facts and Trends                                                                     RARC-WP-11-002




Appendix I                 Growth in Internet Advertising

                           Figure 7: Internet Advertising Revenues, 2001-2010
                                                (millions)




           Source: Internet Advertising Bureau, 2010.
           http://www.iab.net/about_the_iab/recent_press_releases/press_release_archive/press_release/pr-
           111710



                Table 12: Projected Growth in U.S. Interactive Advertising Revenues




              Source: Forrester Research, 2009. www.fas.org/sgp/crs/misc/R40908.pdf




                                                         42
U.S. Postal Service Office of Inspector General                                       February 24, 2011
Part 1: Facts and Trends                                                              RARC-WP-11-002




Appendix J                E-mail’s Share of Marketing Spending, 2010

                 Figure 8: E-mail Continues to Capture Share of Marketing Spending




                  Source: Winterberry Group, 2010.
                  www.winterberrygroup.com/sites/default/files/Global%20Trends%20--
                  %20DMA2010.pdf




                                                          43
U.S. Postal Service Office of Inspector General                                                   February 24, 2011
Part 1: Facts and Trends                                                                          RARC-WP-11-002




Appendix K               Growth in the U.S. Mobile Market
The following graph depicts the dramatic increase in mobile connections between 1985
and 2009:
                      Figure 9: Growth of Mobile Connections in the U.S. Market




                      Source: CTIA The Wireless Association,. 2010.
                      files.ctia.org/pdf/CTIA_Survey_Year_End_2009_Graphics.pdf

                          Figure 10: Change in Texting Habits Among Adults




                      Source: Pew Research Center, 2010. www.pewinternet.org/Reports/2010/Cell-Phones-and-American-
                               Adults/Part-1-Adults-and-cell-phones-Ownership-and-use/Uses-of-the-phone.aspx




                                                         44
U.S. Postal Service Office of Inspector General                                        February 24, 2011
Part 1: Facts and Trends                                                               RARC-WP-11-002




Appendix L                Global Mobile Ad Requests

                                Figure 11: Global Usage of Mobile Internet




                             Source: AdMob, 2010. metrics.admob.com/wp-
                content/uploads/2010/06/May-2010-AdMob-Mobile-Metrics-Highlights.pdf




                                                          45
U.S. Postal Service Office of Inspector General                              February 24, 2011
Part 1: Facts and Trends                                                     RARC-WP-11-002




Appendix M               OECD Broadband Penetration Rates Globally, 2009

                             Figure 12: Global Broadband Penetration Rates




                Source: OECD, 2009. www.websiteoptimization.com/bw/1006




                                                        46
